APPENDIX

1a
APPENDIX A
The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
————
2019 CO 19
————
Supreme Court Case No. 16SC75

Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 12CA2540
————
Petitioner:
James Joseph Garner,
v.
Respondent:
The People of the State of Colorado.
————
Judgment Affirmed

en banc

March 18, 2019
————
Attorneys for Petitioner:
Megan A. Ring, Public Defender
Inga K. Nelson, Deputy Public Defender

Denver, Colorado

Attorneys for Respondent:
Philip J. Weiser, Attorney General
Jillian J. Price, Assistant Attorney General

Denver, Colorado

2a
Attorneys for Amicus Curiae The American
Psychological Association:
Wilmer Cutler Pickering Hale and Dorr LLP
Michael J.P. Hazel

Denver, Colorado

Wilmer Cutler Pickering Hale and Dorr LLP
David W. Ogden
Daniel S. Volchok
Kevin M. Lamb

Washington, D.C.

Attorneys for Amicus Curiae
Project:
Johnson & Klein, PLLC
Eric K. Klein
Amy D. Trenary

The

Innocence

Boulder, Colorado

JUSTICE MÁRQUEZ delivered the Opinion of the
Court.
JUSTICE HART dissents, and JUSTICE HOOD and
JUSTICE GABRIEL join in the dissent.
¶1 Eyewitness identifications are extremely powerful evidence. “[T]here is almost nothing more convincing
than a live human being who takes the stand, points
a finger at the defendant, and says ‘That’s the one!’”
Watkins v. Sowders, 449 U.S. 341, 352 (1981)
(Brennan, J., dissenting) (quoting Elizabeth F. Loftus,
Eyewitness Testimony 19 (1979)). But such evidence
is also fallible. Indeed, “the annals of criminal law are
rife with instances of mistaken identification.” United
States v. Wade, 388 U.S. 218, 228 (1967). Precisely
because identification testimony is so persuasive, a mistaken identification can lead to a wrongful conviction.

3a
¶2 Criminal defendants therefore have access to
certain safeguards at trial to test the reliability of
identification evidence, including the right to counsel
and the opportunity to cross-examine prosecution
witnesses. The U.S. Supreme Court has also recognized “a due process check on the admission of
eyewitness identification, applicable when the police
have arranged suggestive circumstances leading the
witness to identify a particular person as the perpetrator of a crime.” Perry v. New Hampshire, 565 U.S. 228,
232 (2012). Specifically, in Neil v. Biggers, the Court
held that where the State seeks either to admit
evidence of a resulting out-of-court identification or to
elicit a live identification from the witness at trial, due
process requires the trial court to assess whether,
under the totality of the circumstances, the identification is nevertheless reliable. 409 U.S. 188, 198–99
(1972).
¶3 Here, the People charged James Garner for a bar
shooting that injured three brothers. The People’s case
hinged on the brothers’ live identifications of Garner
at trial almost three years later, though none of them
could identify Garner as the shooter in an earlier
photographic array. The core question before us is
whether, in these circumstances, Biggers required the
trial court to assess the reliability of the brothers’ firsttime in-court identifications before allowing them in
front of the jury.
¶4 Garner argues that particularly given the
brothers’ inability to identify him before trial, their
in-court identifications were the product of impermissibly suggestive circumstances, and the trial court
should have suppressed them under both Biggers and
the Colorado Rules of Evidence. The People respond
that where an in-court identification does not stem

4a
from a constitutionally defective out-of-court identification procedure, the court need not screen the in-court
identification for reliability. Instead, any questions of
reliability are for the jury to weigh.
¶5 We hold that where an in-court identification is
not preceded by an impermissibly suggestive pretrial
identification procedure arranged by law enforcement,
and where nothing beyond the inherent suggestiveness of the ordinary courtroom setting made the incourt identification itself constitutionally suspect, due
process does not require the trial court to assess the
identification for reliability under Biggers. Because
Garner alleges no impropriety regarding the pretrial
photographic arrays, and the record reveals nothing
unusually suggestive about the circumstances of the
brothers’ in-court identifications, we hold that the incourt identifications did not violate due process. We
further hold that Garner’s evidentiary arguments are
unpreserved and that the trial court’s admission of the
identifications was not plain error under CRE 403,
602, or 701. Accordingly, we affirm the judgment of the
court of appeals.
I. Facts and Procedural History
¶6 Near closing time at a Denver bar, two groups
were celebrating birthdays. Christian Adame-Diaz
was celebrating with his friend and his two brothers,
Roberto and Arturo. The defendant, James Garner,
was celebrating with his girlfriend and a few others. A
fight broke out between the two groups. Someone
pulled out a gun and fired six shots, injuring all three
brothers. Following the shooting, Garner’s group fled.
Police recovered from the scene a pair of glasses
splattered with Garner’s blood, and a cell phone
belonging to his girlfriend.

5a
¶7 The People charged Garner with attempted
murder of each brother; first-degree assault of Christian
and Arturo; possession of a weapon by a previous
offender; 1 and crime of violence sentence enhancers.
The defense maintained that although Garner was at
the bar on the night of the shooting, he was not the
gunman.
¶8 During their investigation, police presented each
brother with a photographic array that included Garner.
Although Christian was able to identify Garner as
someone present at the bar the night of the shooting,
none of the brothers identified Garner as the gunman.
¶9 Despite failing to identify Garner in the pretrial
photo arrays, all three brothers positively identified
him almost three years later at trial as the shooter.
Roberto testified first. When asked whether he saw
“anybody . . . in the courtroom . . . who shot at [him] on
that particular evening,” Roberto pointed at Garner
and identified the color of his shirt. Roberto said the
shooter’s face was something he would never forget.
The following morning, defense counsel moved to
strike Roberto’s in-court identification of Garner “as
an impermissible one-on-one show[-]up identification,
not comporting with the factors that are required.”
The trial court took the issue under advisement.
¶10 Arturo was the next brother to testify. When
asked how long he had stayed at the bar that night,
Arturo spontaneously identified Garner, saying,
“[U]ntil this individual here fired at us. I don’t want to
see this guy I remember with the gun.” Arturo said he
was “a hundred percent sure that it was him.” Defense
counsel objected to “the unduly suggestive nature of
th[e] one-on-one identification,” but did not specify
1

The People later dismissed this charge.

6a
what made the in-court identification suggestive. The
trial court overruled the objection.
¶11 Christian likewise spontaneously identified
Garner in the courtroom. While testifying about the
events leading up to the shooting, Christian pointed at
Garner and said, “[H]im, James that’s here, pushed
[Roberto] against the chairs. When he fell on top of the
chairs and tables, he took out his gun and started
shooting my brother.” Christian was positive that
Garner was the gunman. Defense counsel again objected
“as to a one-on-one prejudicial show-up lineup,” and
the trial court again overruled the objection.
¶12 Throughout trial, defense counsel questioned
the reliability of the brothers’ identification testimony.
In her opening statement, counsel asked the jury to
note how the brothers’ descriptions of the shooter
initially conflicted but began to cohere over time:
[T]he . . . brothers . . . give different
descriptions of what they think the man
looked like. . . . None of them describe a person
with facial hair. Yet later they meet with the
district attorneys and the detective at the bar,
and suddenly all of their descriptions kind of
start to line up a little bit more because now
they are all describing a guy with facial hair.
¶13 Counsel highlighted these and many other
discrepancies in the brothers’ descriptions of the
shooter through cross-examination, eliciting differences in the type, color, and detail of the shooter’s
clothing, and whether he had facial hair or wore
glasses.
¶14 Defense counsel also confronted each brother
with his earlier failure to identify Garner as the
shooter in a photographic array. For example, Christian

7a
acknowledged on cross-examination that when he saw
Garner in the photo array, he told the detective, “He
was there but he was not the shooter.” And counsel
engaged in the following exchange with Roberto:
Q. Now, you spoke with [the detective]
again . . . so that you could look at the [photo]
lineup and see if you could find the man you’ll
never forget?
A. Yes.
Q. Which you did not?
A. No, I didn’t do it.
¶15 During closing argument, defense counsel
again sought to undermine the brothers’ in-court identifications. She retraced for the jury how “[e]veryone’s
initial description of the shooter [wa]s different,” and
how the brothers’ descriptions changed over time.
Counsel also contrasted the brothers’ inability to
identify Garner in the photographic arrays with their
certainty that he was the shooter when they saw him
in court: “They can’t identify James Garner at . . . all,
but when he’s sitting in this chair, the one with the
arrow over it, that’s when they can say they’re sure.”
¶16 The jury convicted Garner of first-degree
assault of Christian; second-degree assault of Arturo;
and the lesser-included offenses of attempted reckless
manslaughter of Christian and Arturo. The jury
acquitted Garner of all attempted murder charges and
of all the lesser-included charges against Roberto.
¶17 Garner appealed his convictions, arguing, as
relevant here, that the admission of the brothers’ incourt identifications violated his right to due process
under the state and federal constitutions, and the
requirements of CRE 403, 602, and 701.

8a
¶18 The court of appeals rejected these contentions.
People v. Garner, 2015 COA 175, __ P.3d __. The court
reasoned that in Neil v. Biggers, the U.S. Supreme
Court articulated a test for “the exclusion of impermissible pretrial identifications and the in-court
identifications that follow them.” Garner, ¶ 11. The
harm to be avoided, the division explained, is the risk
that “the in-court identification is the product of the
illegal lineup and not the observation of the defendant’s wrongful act.” Id. at ¶ 10. The court recited the
factors identified in Biggers that a trial court should
consider when assessing the reliability of an identification that follows an impermissibly suggestive
confrontation procedure: (1) the witness’s opportunity
to view the accused at the time of the crime; (2) the
witness’s degree of attention; (3) the accuracy of the
witness’s prior description; (4) the witness’s level of
certainty at the confrontation; and (5) the length of
time between the crime and the confrontation. Id. at ¶
11 (citing Biggers, 409 U.S. at 199).
¶19 The court of appeals next observed that the
majority of courts have declined to extend Biggers to
in-court identifications that do not follow unlawful
pretrial identifications. Id. at ¶ 12. The court also
observed that Colorado has not applied “[t]he
exclusionary rule . . . to in-court identifications alleged
to be suggestive simply because of the typical trial
setting.” Id. at ¶ 13 (quoting People v. Monroe, 925
P.2d 767, 775 (Colo. 1996)).
¶20 Relying on these principles, the court noted
that although Garner’s counsel “objected to . . . the
identifications on the basis that they were one-on-one
show-ups,” she offered no specific argument identifying the “constitutionally impermissible and suggestive
circumstances other than the fact that the[] identifica-

9a
tions occurred in the courtroom setting.” Id. at ¶ 19.
The court reasoned that, although “relevant and
certainly grist for cross-examination,” the brothers’
inability to identify Garner as the shooter prior to trial
did not, as a matter of law, “preclude [them] from
making an identification upon seeing [Garner] in
court.” Id. at ¶ 21. The court explained that the
brothers’ previous failure to identify Garner went to
the weight of their in-court identification testimony,
rather than its admissibility. Id. at ¶¶ 21–22.
¶21 The court observed that “[e]ach identification
was done in the presence of the jury,” and that “defense
counsel extensively cross-examined and impeached
each of the brothers with their prior inconsistent
statements and inability to identify defendant as the
shooter from the photo lineup.” Id. at ¶ 23. Thus, the
court concluded, Garner “was given a full and fair
opportunity to cross-examine each of the in-court
identifications,” and his right to due process was not
violated. Id.
¶22 The court also summarily rejected Garner’s
“bare evidentiary arguments,” noting that defense
counsel had not made specific objections at trial under
CRE 403, 602, or 701. Id. at ¶ 23 n.2. It concluded the
trial court had not, in any event, abused its discretion
under those rules in admitting the in-court identifications. Id.
¶23 We granted Garner’s petition for a writ of
certiorari to decide whether the in-court identifications were admitted in error. 2

2

We granted certiorari to review the following issue:

10a
II. Analysis
¶24 Garner argues that the admission of the
brothers’ first-time in-court identifications violated his
rights to due process and a fair trial. Importantly, he
does not allege that the pretrial identification procedures were improper. Instead, he contends that the
brothers’ first-time in-court identifications were the
product of impermissibly suggestive circumstances,
particularly given the brothers’ inability to identify
Garner as the shooter in the pretrial photographic
arrays. Therefore, he argues, the trial court was
required to assess the reliability of these in-court
identifications under the Biggers test before admitting
them. Garner also contends the trial court should have
excluded the identifications under CRE 403, 602, and
701, though he failed to make specific objections under
those rules at trial.
¶25 The People respond that in-court identifications not preceded by improper pretrial identification
procedures do not implicate a defendant’s right to due
process. The People observe that in-court identification procedures historically have not been cause for
concern, and point out that in Perry v. New Hampshire,
the U.S. Supreme Court held that the Biggers
reliability test is not required for identifications that
were not procured under suggestive circumstances
arranged by law enforcement. Although they acknowledge that all in-court identifications entail some
element of suggestion, they contend that any inherent
suggestiveness of the courtroom setting is not attributable to law enforcement. The People thus argue the
1. Whether the court of appeals erred in affirming the trial
court’s admission of the in-court identifications of the
defendant.

11a
trial court was not required to prescreen the brothers’
in-court identifications for reliability under the Biggers
factors; rather, the reliability of their identification
testimony was for the jury to weigh. Alternatively, the
People argue that even under the Biggers factors, the
identifications were sufficiently reliable to be admitted.
Finally, the People contend that the trial court did
not plainly err by failing, sua sponte, to exclude the
challenged identifications under CRE 403, 602, and
701.
¶26 We begin our analysis by tracing the U.S.
Supreme Court’s development of the test articulated
in Biggers. We then observe that in the wake of
Biggers, courts have been divided on whether the
Biggers reliability analysis applies to an in-court
identification not preceded by an improper out-ofcourt identification procedure. We also note that in
Colorado, we have recognized that certain in-court
identifications might raise due process concerns, but
we have declined to require prescreening of identifications alleged to be suggestive based merely on the
ordinary courtroom setting.
¶27 Next, we turn to a discussion of the U.S.
Supreme Court’s decision in Perry. There, the Court
held that out-of-court identifications that are not a
product of suggestive circumstances arranged by law
enforcement do not require judicial prescreening for
reliability under Biggers. Though the Supreme Court
in Perry did not squarely address whether Biggers
applies to first-time in-court identifications, its
reasoning has significantly reshaped that debate: the
clear majority of courts to consider the issue since
Perry have concluded that Biggers does not require
trial courts to screen first-time in-court identifications
for reliability. These courts have concluded that for

12a
defendants identified for the first time in court, the
ordinary safeguards of the trial process are sufficient
to satisfy due process, and the reliability of the
identification testimony is for the jury to weigh.
¶28 Relying on the Supreme Court’s reasoning in

Perry, we hold that where an in-court identification is

not preceded by an impermissibly suggestive pretrial
identification procedure arranged by law enforcement,
and where nothing beyond the inherent suggestiveness of the ordinary courtroom setting made the incourt identification itself constitutionally suspect, due
process does not require the trial court to assess the
identification for reliability under Biggers. Because
Garner does not allege that the pretrial identification
procedures were improper, and the record reveals
nothing unusually suggestive about the circumstances
surrounding the brothers’ in-court identifications, we
hold that their admission did not violate due process.
We further hold that the trial court’s admission of the
identifications was not plain error under CRE 403,
602, or 701. Accordingly, we affirm the judgment of the
court of appeals.
A. Suggestive Out-of-Court Identifications and
Subsequent In-Court Identifications
¶29 Historically, the questionability of eyewitness
identification testimony went to the weight of such
evidence and not its admissibility. But in a trilogy of
cases decided in 1967, United States v. Wade, 388 U.S.
218 (1967), Gilbert v. California, 388 U.S. 263 (1967),
and Stovall v. Denno, 388 U.S. 293 (1967), the U.S.
Supreme Court held that in certain circumstances, an
out-of-court identification obtained by means of improper
police procedures, as well as any subsequent in-court
identification tainted by the original improper one,

13a
should be excluded from the jury’s consideration
altogether.
¶30 In both Wade and Gilbert, witnesses identified
the defendant at a post-indictment lineup conducted
in the absence of the defendant’s counsel. Wade, 388
U.S. at 219–20; Gilbert, 388 U.S. at 269–70. In Wade,
the Court considered whether the witnesses’ subsequent courtroom identifications of the defendant at
trial should be excluded from evidence. 388 U.S. at
219–20. In Gilbert, the prosecution sought to offer not
only the witnesses’ courtroom identifications, but also
testimony relating their initial identifications at the
pretrial lineup. 388 U.S. at 271.
¶31 In both cases, the Court held that the Sixth
Amendment right to counsel applies to a postindictment lineup because it is a critical stage requiring the presence of counsel to preserve the defendant’s
basic right to a fair trial. Wade, 388 U.S. at 236–37;
accord Gilbert, 388 U.S. at 272. In so doing, the Court
expressed concern about “the high incidence of miscarriage of justice from mistaken identification” resulting
from “the degree of suggestion inherent in the manner
in which the prosecution presents the suspect to
witnesses for pretrial identification.” Wade, 388 U.S.
at 228. The Court thus envisioned the presence of
defense counsel as the antidote to potentially suggestive pretrial identification procedures—both to avert
prejudice at the lineup itself, and to preserve the
accused’s meaningful ability to attack the credibility
of the witness’s resulting courtroom identification at
trial. See id. at 228–37.
¶32 The Court then turned to the proper remedy for
the Sixth Amendment violations. As to the pretrial
identification testimony the State sought to admit
in Gilbert, the Court reasoned that such evidence was

14a
the “direct result of the illegal lineup ‘come at by
exploitation of []the primary[] illegality,’” and only the
sanction of automatic exclusion could assure law enforcement authorities’ respect for the accused’s right to
presence of counsel. 388 U.S. at 272–73 (quoting Wong
Sun v. United States, 371 U.S. 471, 488 (1963)).
¶33 But as to the in-court identifications in both

Wade and Gilbert, the Court reasoned that a per se
exclusionary rule would be unjustified. Wade, 388 U.S.
at 240; accord Gilbert, 388 U.S. at 272. Instead, the

Court held that the prosecution should be given an
opportunity to establish by clear and convincing
evidence that the witnesses’ in-court identifications
were based upon observations of the defendant other
than during the lineup. Wade, 388 U.S. at 240; Gilbert,
388 U.S. at 272. The relevant question, the Court
explained, was “[w]hether, granting establishment of
the primary illegality, the evidence to which instant
objection is made has been come at by exploitation
of that illegality or instead by means sufficiently
distinguishable to be purged of the primary taint.”
Wade, 388 U.S. at 241 (quoting John MacArthur
Maguire, Evidence of Guilt 221 (1959)). An in-court
identification free from the taint of any improper
pretrial procedure could thus properly go to the jury.
¶34 Finally, in Stovall, the Court held that the
exclusionary rule identified in Wade and Gilbert did
not apply retroactively. Stovall, 388 U.S. at 296–301.
But in setting forth its reasons for giving those cases
only prospective application, the Court made clear
that a defendant could nevertheless seek to prove—
independent of any Sixth Amendment violation—that
a police identification procedure was so “unnecessarily
suggestive and conducive to irreparable mistaken
identification” as to violate his Fourteenth Amendment

15a
right to due process. Id. at 301–02. There, the victimwitness identified Stovall in a pretrial show-up
conducted in her hospital room, where Stovall stood
handcuffed to an officer and was the only black man
present. Id. at 295. Ultimately, the Court found no due
process violation, concluding that the highly suggestive procedure in that case was justified because no
one knew how long the victim-witness might live. Id.
at 301–02. But importantly, Stovall recognized a
distinct due process protection from unnecessarily
suggestive out-of-court identification procedures.
¶35 A year later, in Simmons v. United States, the
Supreme Court again considered the due process
protection against suggestive pretrial identification
procedures. 390 U.S. 377 (1968). In that case, the
prosecution relied on in-court identifications that were
allegedly tainted by the witnesses’ previous exposure
to a suggestive photographic array. Id. at 381–83.
The Simmons Court acknowledged that the police’s
improper use of photographs can lead to a mistaken
identification, and that a witness “thereafter is apt to
retain in his memory the image of the photograph
rather than of the person actually seen, reducing the
trustworthiness of [any] subsequent . . . courtroom
identification.” Id. at 383–84. But the Court also noted
that the danger of such a technique can be mitigated
through cross-examination at trial. Id. at 384. Thus,
it declined to prohibit the already widespread use of
photographic arrays. Id. Instead, it held that a
conviction based on in-court identification at trial
following a pretrial identification by photograph will
be set aside where the pretrial identification procedure was “so impermissibly suggestive as to give rise
to a very substantial likelihood of irreparable misidentification.” Id. The Court ultimately declined to overturn
Simmons’ conviction, reasoning that the identification

16a
procedure used in that case was justified, and that
there was little chance that it led to a misidentification. Id. at 384–85.
In Biggers, the Supreme Court synthesized its prior
cases and established the approach to be used to
determine whether due process requires suppression
of an identification tainted by suggestive procedures.
In that case, the prosecution’s evidence included a
victim-witness’s testimony regarding her visual and
voice identification of the defendant at a station-house
show-up. 409 U.S. at 189, 195–96. In discerning the
guidelines that had emerged from its prior cases, the
Court emphasized that “the primary evil to be avoided
[from a suggestive confrontation] is ‘a very substantial
likelihood of irreparable misidentification.’” Id. at 198
(quoting Simmons, 390 U.S. at 384). That likelihood of
misidentification is what violates a defendant’s right
to due process, the Court explained; it is what justifies
the exclusion of an in-court identification made in the
wake of a suggestive out-of-court identification, as well
as testimony about the out-of-court identification
itself. See id.
However, the Court rejected the idea that unnecessary suggestiveness alone requires the exclusion of
evidence. Id. Instead, the Court held that the proper
question is “whether under the ‘totality of the circumstances’ the identification was reliable even though
the confrontation procedure was suggestive.” Id. at
199. The Court then outlined five factors to be
considered in evaluating the likelihood of misidentification: (1) the opportunity of the witness to view the
criminal at the time of the crime; (2) the witness’s
degree of attention; (3) the accuracy of the witness’s
prior description of the criminal; (4) the level of
certainty the witness demonstrated at the confronta-

17a
tion; and (5) the length of time between the crime and
the confrontation. Id. at 199–200. Applying these
factors, the Court concluded there was no substantial
likelihood of misidentification, and the evidence was
properly allowed to go to the jury. Id. at 201.
¶36 A few years later, in Manson v. Brathwaite, the
Court clarified that the Biggers analysis applied to
out-of-court confrontations conducted both pre- and
post-Stovall. 432 U.S. 98, 114 (1977). The Court again
rejected a per se rule of exclusion whenever law
enforcement officers use improper identification procedures, reemphasizing that “reliability is the linchpin
in determining the admissibility of identification
testimony” and explaining that the five factors outlined
in Biggers are to be weighed against the “corrupting
effect of the suggestive identification itself.” Id. at
111–14. Ultimately, the Court could not conclude that
there was a substantial likelihood of misidentification
in that case, and “[s]hort of that point, such evidence
[was] for the jury to weigh.” Id. at 116. The Court
observed that it was “content to rely upon the good
sense and judgment of American juries,” noting that
evidence containing “some element of untrustworthiness
is customary grist for the jury mill,” and that juries
can “measure intelligently the weight of identification
testimony that has some questionable feature.” Id.
B. First-Time In-Court Identifications
¶37 Biggers and Brathwaite did not answer the
question before us today: whether a first-time in-court
identification not preceded by an impermissibly suggestive pretrial identification procedure arranged by
law enforcement should be subject to judicial screening under Biggers. In the wake of those cases, courts
were split on the issue. Many began to evaluate the
reliability of such first-time in-court identifications

18a
under Biggers, while still many others declined to do
so. 4
3

¶38 Courts that applied Biggers to such first-time
in-court identifications tended to reason that Biggers
was concerned primarily with preventing convictions
based on mistaken identification, a rationale that
supported applying its analysis to all eyewitness
identifications, whether obtained before or during
trial. See, e.g., United States v. Hill, 967 F.2d 226, 232
(6th Cir. 1992) (“All of the concerns that underlie the
Biggers analysis, including the degree of suggestiveness, the chance of mistake, and the threat to due
process are no less applicable when the identification
takes place for the first time at trial.”).
¶39 Meanwhile, those courts that declined to apply
Biggers reasoned primarily that unlike suggestive
out-of-court identifications or in-court identifications
See, e.g., United States v. Douglas, 489 F.3d 1117, 1126 (11th
Cir. 2007); United States v. Murray, 65 F.3d 1161, 1168–69 (4th
Cir. 1995); United States v. Hill, 967 F.2d 226, 232 (6th Cir.
1992); United States v. Rundell, 858 F.2d 425, 426–27 (8th Cir.
1988) (per curiam); United States v. Aigbevbolle, 772 F.2d 652,
654 (10th Cir. 1985); Code v. Montgomery, 725 F.2d 1316, 1319–
20 (11th Cir. 1984) (per curiam); Isom v. State, 928 So. 2d 840,
846–49 (Miss. 2006); In re R.W.S., 728 N.W.2d 326, 335–36 (N.D.
2007); Commonwealth v. Silver, 452 A.2d 1328, 1331–32 (Pa.
1982); State v. Drawn, 791 P.2d 890, 892–93 (Utah Ct. App.
1990); Hogan v. State, 908 P.2d 925, 928–29 (Wyo. 1995).
3

See, e.g., United States v. Domina, 784 F.2d 1361, 1367–69
(9th Cir. 1986); Byrd v. State, 25 A.3d 761, 767 (Del. 2011); In re
W.K., 323 A.2d 442, 444 (D.C. 1974); White v. State, 403 So. 2d
331, 335 (Fla. 1981); Ralston v. State, 309 S.E.2d 135, 136–37
(Ga. 1983); State v. King, 934 A.2d 556, 561 (N.H. 2007); State v.
Clausell, 580 A.2d 221, 235–36 (N.J. 1990); State v. Green, 250
S.E.2d 197, 200 (N.C. 1978); State v. Lewis, 609 S.E.2d 515, 518
(S.C. 2005).
4

19a
tainted by earlier suggestive procedures, first-time incourt identifications take place before the jury and are
subject to all the ordinary protections of a criminal
trial:
The concern with in-court identification, where
there has been suggestive pretrial identification, is that the witness later identifies the
person in court, not from his or her recollection
of observations at the time of the crime
charged, but from the suggestive pretrial
identification. Because the jurors are not
present to observe the pretrial identification,
they are not able to observe the witness
making that initial identification. The certainty or hesitation of the witness when
making the identification, the witness’s facial
expressions, voice inflection, body language,
and the other normal observations one makes
in everyday life when judging the reliability of
a person’s statements, are not available to the
jury during this pretrial proceeding. There is a
danger that the identification in court may
only be a confirmation of the earlier
identification, with much greater certainty
expressed in court than initially.
When the initial identification is in court . . .
[t]he jury can observe the witness during the
identification process and is able to evaluate
the reliability of the initial identification.

United States v. Domina, 784 F.2d 1361, 1368 (9th Cir.
1986) (internal citations omitted); accord Ralston v.
State, 309 S.E.2d 135, 136–37 (Ga. 1983); State v.
Lewis, 609 S.E.2d 515, 518 (S.C. 2005).

20a
¶40 Notably, even among the courts that deemed
Biggers applicable to first-time in-court identifications, many ultimately concluded that the typical
courtroom identification procedure posed no constitutional problem. See, e.g., Hogan v. State, 908 P.2d 925,
929 (Wyo. 1995) (“[W]ithout more, the mere exposure
of the accused to a witness in the suggestive setting
of a criminal trial does not amount to the sort of
impermissible confrontation with which the due
process clause is concerned.” (quoting Middletown v.
United States, 401 A.2d 109, 132 (D.C. 1979))).
¶41 Colorado was in this camp. We recognized in
People v. Walker “that under some circumstances an
in-court identification may constitute an impermissible one-on-one confrontation which is unnecessarily
suggestive and conducive to irreparable mistaken
identification.” 666 P.2d 113, 119 (Colo. 1983)
(likening a witness’s first-time confrontation with a
defendant in court to a one-on-one show-up). Although
the details of the in-court identification procedure in
Walker are somewhat ambiguous, the prosecutor
apparently “told [the witness], and she assumed, that
the defendant on trial was the shotgun-wielding
robber.” Id. at 120.
¶42 We later clarified, however, that exclusion is
not required for “in-court identifications alleged to be
suggestive simply because of the typical trial setting.”
People v. Monroe, 925 P.2d 767, 775 (Colo. 1996). 5
We observe that in several of our cases in this area, we seem
to have conflated the Sixth Amendment and due process tests for
admissibility, permitting a witness to make an in-court
identification if based on an “independent source” distinct from
any prior, unnecessarily suggestive identification procedure. See,
e.g., Monroe, 925 P.2d at 773–75; Walker, 666 P.2d at 119;
Gimmy v. People, 645 P.2d 262, 270 (Colo. 1982); People v.
5

21a
Distinguishing Walker, we noted several factors that
made the identification procedure in Monroe comparatively less suspect, including that “[t]he prosecution
made no improper remarks to the witness.” Monroe,
925 P.2d at 774. We also emphasized the role of
counsel in forestalling or exposing any suggestiveness
in the identification and observed that special procedures may be appropriate in certain circumstances. Id.
(acknowledging the trial court’s discretion to order inperson lineups or Crim. P. 41.1 nontestimonial
identifications).
C. Perry and Its Wake
1. Perry v. New Hampshire
¶43 More recently, in Perry v. New Hampshire, the
Supreme Court considered whether Biggers requires a
trial court to assess the reliability of an out-of-court
identification obtained under suggestive circumstances
not arranged by law enforcement. 565 U.S. 228 (2012).
Although Perry did not directly answer whether
Biggers applies to a first-time in-court identification,
the Court’s reasoning significantly reshaped the terms
of that debate. We therefore discuss Perry and its
rationale in some detail.
¶44 In Perry, police received a call that someone
was trying to break into cars in the parking lot of an
apartment building. 565 U.S. at 233. The responding
officer encountered Perry in the lot, holding two carstereo amplifiers. Id. A second officer remained with
Perry while the first went upstairs to talk to a building
resident who witnessed the break-in. Id. at 234. When
Mattas, 645 P.2d 254, 261 (Colo. 1982); People v. Thatcher, 638
P.2d 760, 770 (Colo. 1981); People v. Smith, 620 P.2d 232, 238
n.11 (Colo. 1980); People v. Bowen, 490 P.2d 295, 298 (Colo. 1971);
Martinez v. People, 482 P.2d 375, 377 (Colo. 1971).

22a
the officer asked the resident for a description of the
perpetrator, she spontaneously pointed to her window
and said the person she had seen breaking into a car
was standing in the parking lot next to the other
officer. Id. The resident was later unable to identify
Perry in a photographic array. Id. Perry moved to
suppress evidence of the resident’s out-of-court identification on due process grounds, arguing that it
amounted to an impermissible one-person show-up.
Id. at 234–35. The court denied the motion, reasoning
that because the out-of-court identification did not
result from an unnecessarily suggestive procedure
manufactured by the police, the reliability of the
testimony was for the jury to determine. Id. at 235.
¶45 After the jury convicted him of theft, Perry
appealed, arguing that the suggestive circumstances
surrounding the identification were enough to trigger
the trial court’s duty to evaluate the identification for
reliability under Biggers before allowing the jury to
consider it. Id. at 236. Perry’s argument hinged largely
on the Court’s statement in Brathwaite that “reliability is the linchpin in determining the admissibility
of identification testimony.” Id. at 240 (quoting
Brathwaite, 432 U.S. at 114). If “reliability is the
linchpin” of admissibility under the Due Process
Clause, Perry argued, then the Biggers reliability
analysis should be triggered regardless of whether
police were responsible for creating the suggestive
circumstances that marred the identification. Id. at
240–41.
¶46 The Supreme Court rejected Perry’s reading of
its precedent, observing that he had “removed [the
Court’s] statement in Brathwaite from its mooring.”
Id. at 241. Read in context, the Court explained, its
reference to reliability appeared in the Court’s discus-

23a
sion of the appropriate remedy “when the police use an
unnecessarily suggestive identification procedure.” Id.
That remedy—the judicial screen for reliability—was
adopted in lieu of an automatic exclusionary rule and,
importantly, “comes into play only after the defendant
establishes improper police conduct.” Id. Far from
suggesting that the risk of mistaken identification
alone was enough to require judicial prescreening of
identification evidence, the Court had made clear that
the “purpose of the check . . . was to avoid depriving
the jury of identification evidence that is reliable,
notwithstanding improper police conduct.” Id. (citing
Brathwaite, 432 U.S. at 112–13).
¶47 In other words, the Court explained, the
Biggers reliability analysis is triggered “only when law
enforcement officers use an identification procedure
that is both suggestive and unnecessary.” Id. at 238–
39. Revisiting the 1967 trilogy of cases and Stovall’s
progeny, the Court observed that each case had
involved improper procedures arranged by police. See
id. at 237–38, 240–43. It discerned from those cases
that “[a] primary aim of excluding identification
evidence obtained under unnecessarily suggestive
circumstances . . . is to deter law enforcement use of
improper lineups, show[-]ups, and photo arrays in the
first place.” Id. at 241. The Court concluded that
“[t]his deterrence rationale is inapposite in cases, like
Perry’s, in which the police engaged in no improper
conduct.” Id. at 242.
¶48 Importantly, the Court also expressed concern
that to require trial courts to prescreen eyewitness
evidence for reliability under Biggers “any time an
identification is made under suggestive circumstances,”
id. at 240, would “open the door to judicial preview,
under the banner of due process, of most, if not all,

24a
eyewitness identifications,” id. at 243. This is because
“most eyewitness identifications involve some element
of suggestion. Indeed, all in-court identifications do.”
Id. at 244. (emphasis added).
¶49 The Court recognized the fallibility of
eyewitness identifications, but underscored that “[t]he
Constitution . . . protects a defendant against a
conviction based on evidence of questionable reliability,
not by prohibiting introduction of the evidence, but by
affording the defendant means to persuade the jury
that the evidence should be discounted as unworthy of
credit.” Id. at 237. Among the safeguards built into the
adversarial system are the requirement that guilt be
proven beyond a reasonable doubt, the right to
counsel, and the right to confront and cross-examine
the prosecution’s witnesses. Id. at 246. Other safeguards, such as the rules of evidence, cautionary jury
instructions, and the ability to call expert witnesses to
testify about the shortcomings of eyewitness testimony, provide additional protection against convictions
based on questionable identification evidence. Id. at
247. Given the safeguards available in the ordinary
criminal trial, the Court concluded that the Due
Process Clause does not require a preliminary judicial
inquiry into the reliability of eyewitness identification
when the identification was not procured under
unnecessarily suggestive circumstances arranged by
law enforcement. Id. at 248.
2. After Perry
¶50 The Perry decision shifted the debate over
whether Biggers requires judicial prescreening of
first-time in-court identifications not preceded by
suggestive out-of-court identification procedures. The
clear majority of courts to consider the issue since
Perry have concluded that, with respect to first-time

25a
in-court identifications, “the requirements of due process are satisfied in the ordinary protections of trial.”
United States v. Whatley, 719 F.3d 1206, 1216 (11th
Cir. 2013). 6
¶51 Tracking the reasoning in Perry, these courts
have concluded that Biggers does not apply to the type
of first-time in-court identifications at issue here for
three main reasons. First, because an ordinary in-court
identification procedure involves no improper law
enforcement action, exclusion of an identification
made under such circumstances would serve no deterrent purpose and would thus be inappropriate under
Perry. See State v. Ramirez, 409 P.3d 902, 912 (N.M.
2017) (concluding defendant’s objections based on the
suggestiveness of the courtroom setting “do nothing to
establish that the alleged taint . . . if there was any,
arose as a consequence of improper law enforcement
influence”); see also Whatley, 719 F.3d at 1216.
¶52 Second, these courts reason that the Perry
Court squarely rejected the notion that due process
demands judicial prescreening of eyewitness identifications whenever they might be unreliable or the product
of suggestion. See, e.g., Fairley v. Commonwealth, 527
S.W.3d 792, 799 (Ky. 2017) (“Pointedly, the Court
See also, e.g., United States v. Thomas, 849 F.3d 906, 910–11
(10th Cir. 2017); United States v. Hughes, 562 F. App’x 393, 398
(6th Cir. 2014); Young v. State, 374 P.3d 395, 411–12 (Alaska
2016) (but announcing new, more protective due process test
under state law for future cases); Fairley v. Commonwealth, 527
S.W.3d 792, 798–800 (Ky. 2017); Galloway v. State, 122 So. 3d
614, 664 (Miss. 2013); State v. Ramirez, 409 P.3d 902, 911–13
(N.M. 2017); State v. Hickman, 330 P.3d 551, 571–72 (Or. 2014);
cf. Benjamin v. Gipson, 640 F. App’x 656, 659 (9th Cir. 2016)
(rejecting ineffective assistance of counsel claim for failure to
move to suppress first-time in-court identification because, given
Perry, motion likely to have been unsuccessful).
6

26a
observed that many eyewitness identifications are
problematic for any number of reasons including . . .
a witness’s poor vision, the stress of the encounter,
personal grudges and cross-racial perceptions . . . .”).
In so doing, the Court implicitly rejected the notion
that due process requires judicial prescreening of all
in-court identifications. See id.; United States v.
Thomas, 849 F.3d 906, 910–11 (10th Cir. 2017);
Whatley, 719 F.3d at 1215–16.
¶53 Finally, like Perry, these courts place their
trust in the ordinary safeguards of trial that are at
their height when an identification procedure takes
place in open court. See Young v. State, 374 P.3d 395,
411–12 (Alaska 2016) (“An in-court identification . . .
occurs in the presence of the judge, the jury, and the
lawyers. The circumstances under which the identification is made are apparent. Defense counsel has the
opportunity to identify firsthand the factors that make
the identification suggestive and to highlight them for
the jury.”); see also Fairley, 527 S.W.3d at 799–800;
Whatley, 719 F.3d at 1217; Ramirez, 409 P.3d at 913.
¶54 Notably, several courts that had previously
applied Biggers to first-time in-court identifications
shifted course after Perry, concluding that the Supreme
Court’s reasoning undercut their earlier decisions. The
Eleventh Circuit observed:
When the Supreme Court made clear in Perry
that Simmons, Biggers, and indeed “every case
in the Stovall line” relied upon the
involvement of law enforcement officials in the
creation of the suggestive circumstances of the
identification and that the Due Process Clause
“does not require a preliminary judicial inquiry
into the reliability of an eyewitness
identification when the identification was not

27a
procured under unnecessarily suggestive circumstances arranged by law enforcement,” the
Court removed the foundation upon which [the
Eleventh Circuit’s prior cases] rested. And
when the Supreme Court rejected the
argument that the Due Process Clause requires
judicial prescreening of all identifications
obtained under suggestive circumstances and
expressly disapproved the idea that in-court
identifications would be subject to prescreening, it made clear that our precedents are no
longer good law.

Whatley, 719 F.3d at 1216 (quoting Perry, 565 U.S.

at 248). The Sixth Circuit, which had earlier held
that “[a]ll of the concerns that underlie the Biggers
analysis . . . are no less applicable when the identification takes place for the first time at trial,” Hill, 967
F.2d at 232, reversed course after Perry, observing
that the Supreme Court had clarified that the “due
process rights of defendants identified in the courtroom under suggestive circumstances are generally
met through the ordinary protections in trial,” United
States v. Hughes, 562 F. App’x 393, 398 (6th Cir.
2014); see also Thomas, 849 F.3d at 911 (holding that
prior Tenth Circuit precedent requiring judicial
reliability assessment for first-time in-court
identifications “is no longer viable” after Perry). And
although the Eighth Circuit had previously applied
Biggers to first-time in-court identifications, see
Rundell, 858 F.2d at 426–27, that court likewise
concluded that Perry changed the legal landscape
enough that it was not plain error for a trial court to
fail to conduct a reliability analysis of a first-time incourt identification, see United States v. Shumpert,
889 F.3d 488, 491 (8th Cir. 2018).

28a
¶55 A small minority of courts have applied Biggers
to first-time in-court identifications since Perry was
decided. 7 Notably, some of those cases do not address
Perry or its rationale in their analysis at all. See, e.g.,
United States v. Greene, 704 F.3d 298, 305–06 (4th
Cir. 2013); City of Billings v. Nolan, 383 P.3d 219, 224–
25 (Mont. 2016).
¶56 Others of those courts have held that first-time
in-court identifications will be excluded only where
there is evidence of improper state action in eliciting
the identification. For example, the U.S. District Court
for the District of Columbia reasoned that an in-court
identification procedure could be classified as state
action under Perry, but that scrutiny under Biggers
should be limited to those identifications where “the
government d[oes] not have a basis for believing that
the witness could make a reliable identification,” and
the identification is “merely an attempt to circumvent
the due process constraints on one-man show[-]ups.”
United States v. Morgan, 248 F. Supp. 3d 208, 213 &
n.2 (D.D.C. 2017). The Seventh Circuit similarly
declined to consider all first-time in-court identification procedures impermissibly suggestive, but specifically
held that a witness’s failure to identify a defendant in
a pretrial photographic array is not enough to trigger
a Biggers analysis. See Lee v. Foster, 750 F.3d 687,
691–92 (7th Cir. 2014).
¶57 In a 4-3 decision, the Connecticut Supreme
Court agreed that Perry did not foreclose application
of Biggers to first-time in-court identifications because
See, e.g., Lee v. Foster, 750 F.3d 687, 691–92 (7th Cir. 2014);
United States v. Greene, 704 F.3d 298, 305–06 (4th Cir. 2013);
United States v. Morgan, 248 F. Supp. 3d 208, 211–15 (D.D.C.
2017); State v. Dickson, 141 A.3d 810, 822–27 (Conn. 2016); City
of Billings v. Nolan, 383 P.3d 219, 224–25 (Mont. 2016).
7

29a
a prosecutor’s conduct could involve improper state
action that should be deterred. State v. Dickson, 141
A.3d 810, 827–28 (Conn. 2016). But the court went a
step further, holding that in cases where identity is at
issue, first-time in-court identifications are so suggestive that they necessarily “implicate due process
protections and must be prescreened by the trial
court.” Id. at 822–25. The court dismissed the Supreme
Court’s reference in Perry to the dubiousness of
subjecting all in-court identifications to a reliability
analysis as a “passing, general reference” that could
not foreclose the “conclusion that [such identifications]
can implicate due process concerns under certain
circumstances.” Id. at 828. The court then delineated
new procedures for prescreening first-time in-court
identifications. Id. at 835. But see id. at 849–50
(Zarella, J., concurring) (doubting state court’s authority
to adopt prophylactic rules under the United States
Constitution).
Massachusetts’ Supreme Judicial Court has also
created a rule limiting in-court identifications where
the eyewitness either was not asked to make an outof-court identification, Commonwealth v. Crayton, 21
N.E.3d 157, 164–73 (Mass. 2014), or made an equivocal prior identification, Commonwealth v. Collins, 21
N.E.3d 528, 534 (Mass. 2014). These decisions,
however, turn on state “[c]ommon law principles of
fairness,” and explicitly acknowledge the court’s
departure from U.S. Supreme Court jurisprudence.
Crayton, 21 N.E.3d at 165 (contrasting Massachusetts’
test with the standard articulated in Perry).
Finally, the First Circuit has declined to take a side
in the debate, concluding that the defendant’s arguments for exclusion in that case failed either way.
United States v. Correa-Osorio, 784 F.3d 11, 19–22

30a
(1st Cir. 2015). If Biggers did not apply, the in-court
identification was permissible because the defendant
“received all the safeguards Perry stamped sufficient
to protect . . . due process rights.” Id. at 20. And even
under Biggers, the First Circuit reasoned, the
defendant “never gets to first base,” because the only
suggestion he alleged in his identification was “that he
had a huge ‘pick me’ sign on him because . . . he was
the only male defendant at counsel table.” Id. at 21–
22. Correa-Osorio suggests that the gap between these
two approaches to in-court identifications may not be
so wide: absent evidence of unusual suggestion, most
courts ultimately allow in-court identifications to go to
the jury.
D. The Brothers’ In-Court Identifications
¶58 Relying on the reasoning in Perry, we hold that
where an in-court identification is not preceded by an
impermissibly suggestive pretrial identification procedure arranged by law enforcement, and where nothing
beyond the inherent suggestiveness of the ordinary
courtroom setting made the in-court identification
itself constitutionally suspect, due process does not
require the trial court to assess the identification for
reliability under Biggers.
¶59 We acknowledge the suggestiveness that
inheres in identifying a defendant for the first time in
court. But Perry rejected the argument that the Due
Process Clause requires judicial prescreening for
reliability “any time an identification is made under
suggestive circumstances.” 565 U.S. at 240. And we
cannot ignore that the Supreme Court implicitly
dismissed the notion that the suggestiveness inherent
in “all in-court identifications” itself justifies a Biggers
analysis. See id. at 244. We further agree with the

31a
Court’s implication that such a broad rule would be
unworkable. See id.
¶60 Although the prosecution functions as a state
actor in connection with law enforcement, see Dickson,
141 A.3d at 824, Perry made clear that Biggers prescreening is not required in the absence of improper
state action. See 565 U.S. at 241–42, 245. Indeed,
“[t]he very purpose of the check . . . [is] to avoid
depriving the jury of identification evidence that is
reliable, notwithstanding improper [law enforcement]
conduct.” Id. at 241. The inherent suggestiveness of an
ordinary courtroom setting does not, without more,
give rise to improper state action. The prosecution
does not force the accused to sit at his counsel’s table;
instead, a defendant typically chooses to sit there
(instead of in the audience) to assist in his defense. See
Correa-Osorio, 784 F.3d at 20; Whatley, 719 F.3d at
1217. Because excluding a first-time identification
made in an ordinary courtroom setting would not
serve to deter improper law enforcement action, it
would be inappropriate under Perry. See 565 U.S. at
241–42.
¶61 Nor are we inclined to require prescreening of
in-court identifications in the narrower set of cases
where, as here, the witness failed to identify the
defendant in a pretrial procedure. Far from deterring
improper state action, such a rule could disincentivize
the use of properly conducted lineups and encourage
the prosecution to try their luck in the (typically)
suggestive trial setting. Moreover, there are legitimate
reasons why a witness might be better able to identify
a defendant at trial—live, and in person, with view of
his expression and manner—than in the sort of
photographic array used in this case.

32a
¶62 Finally, Perry made clear that ordinary trial
safeguards are the appropriate checks on identifications made under suggestive circumstances not
attributable to improper law enforcement conduct. See
id. at 246–48. Indeed, when a first-time identification
takes place in court, counsel can expose—as defense
counsel ably did in this case—any suggestiveness at
work in the courtroom, cf. Wade, 388 U.S. at 230–31,
while juries can make contemporaneous assessments
of credibility. And where a witness makes a first-time
in-court identification, the witness’s previous failure
to identify the defendant presents ideal fodder for
impeachment on cross-examination. In short, we cannot,
consistent with Perry, conclude that in-court identifications alleged to be suggestive simply because of the
ordinary trial setting must be screened rather than
subjected to cross-examination and argument before
the jury.
¶63 Though we decline to require judicial prescreening of all in-court identifications under Biggers,
we recognize, as we did in Walker, that some
courtroom identifications not stemming from improper
out-of-court identification procedures might still raise
constitutional concern. Here, however, because Garner
alleges no impropriety in the pretrial photographic
arrays nor anything unusually suggestive about the
circumstances surrounding the brothers’ subsequent
in-court identifications, we hold that federal due
process 8 did not require their exclusion at trial. 9

We do not separately analyze our state constitutional due
process guarantee because Garner has not argued that it should
be interpreted any more broadly than its federal counterpart.
8

Because application of Biggers’ reliability test was not
required for the in-court identifications at issue, we have no
9

33a
E. Evidentiary Challenges
¶64 That due process does not require a reliability
hearing under Biggers does not strip judges of their
role as gatekeepers under the rules of evidence. See
Perry, 565 U.S. at 245–47 (declining to “enlarge the
domain of due process” in part because of existing
safeguards against questionable identifications, including state and federal rules of evidence). Here, however,
because Garner failed to object to the brothers’ incourt identifications under any particular rule of
evidence, we agree with the court of appeals that his
evidentiary arguments are unpreserved. We cannot
hold that it was plain error for the trial court not to
exclude the identifications under CRE 403, 602, or 701
sua sponte.
III. Conclusion
¶65 We hold that where an in-court identification is
not preceded by an impermissibly suggestive pretrial
identification procedure arranged by law enforcement,
and where nothing beyond the inherent suggestiveness of the ordinary courtroom setting made the incourt identification itself constitutionally suspect, due
process does not require the trial court to assess the
identification for reliability under Biggers. Because
Garner alleges no impropriety regarding the pretrial
photographic arrays, and the record reveals nothing
unusually suggestive about the circumstances of the
brothers’ in-court identifications, we hold that the incourt identifications did not violate due process. We
further hold that Garner’s evidentiary arguments are
unpreserved and that the trial court’s admission of the
identifications was not plain error under CRE 403,
occasion to consider the additional factors Garner urges us to fold
into that analysis.

34a
602, or 701. Accordingly, we affirm the judgment of the
court of appeals.
JUSTICE HART dissents, and JUSTICE HOOD and
JUSTICE GABRIEL join in the dissent.

35a
JUSTICE HART, dissenting.
¶66 In Neil v. Biggers, the Supreme Court explained
that when a procedure used to elicit eyewitness
identification of a criminal defendant is “so unnecessarily suggestive and condu[cive] to irreparable mistaken
identification that [the defendant] was denied due
process of law” that procedure must be screened to
ensure the reliability of the identification. 409 U.S.
188, 196 (1972) (quoting Stovall v. Denno, 388 U.S.
293, 302 (1967)). In Perry v. New Hampshire, the
Court made clear that the requirement for this due
process check “turn[s] on the presence of state
action . . . .” 565 U.S. 228, 233 (2012).
This case involves one of the most suggestive of all
possible identification procedures—in-court identification. The in-court identifications made in this case
were arranged by a prosecutor—a member of law
enforcement. And they were conducive to irreparable
misidentification because all three witnesses had
failed to identify the defendant when presented with
the opportunity to do so before trial. Mr. Garner was
entitled to have the proposed eyewitness identifications screened by the judge to evaluate their likely
reliability before or, if necessary, even during trial. 1

I appreciate that the trial judge may not always know if the
prosecution intends a first-time, one-on-one identification of the
defendant at trial. In the ordinary course, defense counsel should
request a pre-trial hearing when there seems to be the potential
for such an identification procedure. If defense counsel is
uncertain of the prosecution’s intentions in this regard, she may
request an order for discretionary disclosure to the defense by the
prosecution under Crim. P. 16 (I)(d)(1). The trial court may also
institute a standard procedure requiring the prosecution to
disclose to the court and defense counsel if she intends to attempt
such an identification at trial. See C.R.E. 104(a) (“Preliminary
1

36a
¶67 The majority concludes that Perry settled the
question of whether in-court identifications should be
screened for reliability. In fact, Perry did not even
consider that question. And while many courts since
Perry have reached the conclusion that the majority
reaches today, those courts have failed to adequately
consider what a growing body of science and
experience have taught us about eyewitness
identifications. As a result, they have failed to take
seriously the due process concerns raised by first-time
in-court identifications.
A.
¶68 First-time in-court identifications are inherently
suggestive. A witness appears in the courtroom, never
having successfully identified the defendant before
questions concerning the qualification of a person to be a witness
. . . or the admissibility of evidence shall be determined by the
court . . . .”); C.R.E. 403 (“Although relevant, evidence may be
excluded if its probative value is substantially outweighed by the
danger of unfair prejudice, confusion of the issues, or misleading
the jury . . . .”); C.R.E. 602 (“A witness may not testify to a matter
unless evidence is introduced sufficient to support a finding that
he has personal knowledge of the matter.”); C.R.E. 611(a) (“The
court shall exercise reasonable control over the mode and order
of interrogating witnesses and presenting evidence so as to (1)
make the interrogation and presentation effective for the
ascertainment of the truth . . . .”). Indeed, there is nothing about
the court’s holding today that prevents trial courts from imposing
such restrictions on the admission of evidence, irrespective of the
majority’s conclusion today regarding what due process requires.
Just because a court need not hold a pretrial hearing as a matter
of constitutional law does not mean that a court should not hold
such a hearing under the rules of evidence. Cf. C.R.E. 102 (The
rules of evidence “shall be construed to secure fairness in
administration . . . and promotion of growth and development of
the law of evidence to the end that the truth may be ascertained
and proceedings justly determined.”)

37a
that moment, and is asked whether the defendant—
the one person who the police and prosecutor believe
they have enough evidence to try for the crime in
question—is in fact the right one. “It is hard to
imagine a situation more clearly conveying the
suggestion to the witness that the one presented is
believed guilty . . . .” United States v. Wade, 388 U.S.
218, 234 (1967) (discussing show-up identification
procedures). “The prosecutor, the witness, and
everyone else in the courtroom are aware that the
suspect is the individual seated at the defense table,”
and “[t]here is no way to safeguard the witness from
influence caused by subtle cues in the prosecutor’s
questioning or not-so-subtle cues in the courtroom
itself.” Aliza B. Kaplan & Janis C. Puracal, Who Could

it Be Now? Challenging the Reliability of First-Time
In-Court Identifications After State v. Henderson and

State v. Lawson, 105 J. Crim. L. & Criminology 947,
985 (2015). Witnesses faced with such a suggestive
circumstance “may identify the defendant out of
reliance on the prosecutor and in conformity with what
is expected of them rather than because their memory
is reliable.” Commonwealth v. Crayton, 21 N.E.3d 157,
166–67 (Mass. 2014).
¶69 In-court identifications, like other eyewitness
identifications, are also remarkably fallible. Amicus
curiae, the Innocence Project, has found that eyewitness
misidentification is the leading cause of DNA-confirmed wrongful convictions, with more than 70
percent of DNA exonerations involving eyewitness
misidentification. Brief of Amicus Curiae The Innocence
Project, at 3. “Of those [exonerees], more than half (53
percent) were misidentified in court.” Shirley LaVarco
& Karen Newirth, Connecticut Supreme Court Limits

In-Court Identification in Light of the Danger of
Misidentification, The Innocence Project (Aug. 29,

38a
2016), https://perma.cc/4TSS-6D5G. Significantly,
scientific research has demonstrated that eyewitness
identifications are less reliable with the passage of
time. Nat’l Acad. of Sci., Identifying the Culprit:
Assessing Eyewitness Identification 110 (2014)
(hereinafter NAS Report).
¶70 Despite their lack of reliability, in-court
identifications are also especially persuasive to a jury.
As the majority acknowledges, “there is almost
nothing more convincing than a live human being who
takes the stand, points a finger at the defendant, and
says ‘That’s the one!’” Watkins v. Sowders, 449 U.S.
341, 352 (1982) (Brennan, J., dissenting); see also
United States v. Correa-Osorio, 784 F.3d 11, 29 (1st
Cir. 2015) (Barron, J., concurring in part and dissenting in part) (“Eyewitness testimony is undeniably
powerful. That testimony is all the more powerful
when the eyewitness identifies the defendant right in
front of the jury.”); United States v. Hill, 967 F.2d 226,
231 (6th Cir. 1992) (“[O]f all the evidence that may be
presented to the jury, a witness’ in-court statement
that ‘he is the one’ is probably the most dramatic and
persuasive.” (quoting United States v. Russell, 532
F.2d 1063, 1067 (6th Cir. 1976)); State v. Henderson,
27 A.3d 872, 889 (N.J. 2011) (“[T]here is almost
nothing more convincing [to a jury] than” eyewitness
identification of the defendant. (quoting Watkins, 449
U.S. at 352 (Brennan, J., dissenting))).
¶71 Unfortunately, in-court identification is also
not susceptible to effective challenge through crossexamination because “cross-examination is far better
at exposing lies than at countering sincere but
mistaken beliefs.” State v. Dickson, 141 A.3d 810, 832
(Conn. 2016) (quoting State v. Guilbert, 49 A.3d 705,
725 (Conn. 2012)); see also NAS Report, supra, at 110.

39a
A witness who mistakenly believes that he is
accurately identifying the defendant will come across
in cross-examination as quite sincere and confident.
And while confidence “is not a reliable predictor of the
accuracy of the identification, especially where the
level of confidence is inflated by its suggestiveness[,]”
Crayton, 21 N.E.3d at 168, confidence can be very
persuasive to a jury. In fact, “[s]tudies show that
eyewitness confidence is the single most influential
factor in juror determinations regarding the accuracy
of an eyewitness identification.” State v. Lawson, 291
P.3d 673, 705 (Or. 2012). The impact of confidence on
juror evaluation of an identification makes it very
hard for cross-examination to undercut an in-court
identification. And this is particularly troubling in
light of the numerous studies showing that “under
most circumstances, witness confidence or certainty is
not a good indicator of identification accuracy.” Id. at
704. It is for these reasons that some state supreme
courts are rethinking reliance on cross -examination
as a guard against mistaken eyewitness identification.
See Dickson, 141 A.3d at 832 (noting that “crossexamination is unlikely to expose any witness uncertainty or weakness” in the in-court identification);
Commonwealth v. Collins, 21 N.E.3d 528, 536 (Mass.
2014) (“[C]ross-examination cannot always be expected
to reveal an inaccurate in-court identification where
most jurors are unaware of the weak correlation
between confidence and accuracy and of witness
susceptibility to manipulation by suggestive procedures or confirming feedback.” (quoting Supreme
Court Judicial Court Study Group on Eyewitness
Evidence: Report and Recommendations to the
Justices 20 (July 25, 2013) (internal quotation marks
omitted))); Henderson, 27 A.3d at 918 (concluding that
the state’s earlier test for evaluating the reliability of

40a
eyewitness testimony rested too heavily on the
assumption “that jurors would recognize and discount
untrustworthy eyewitness testimony”).
¶72 These
characteristics
of
an
in-court
identification—its suggestiveness, fallibility, persuasiveness, and imperviousness to cross-examination—
make first-time in-court identifications exactly the
kind of identification procedure that is “conduc[ive] to
irreparable mistaken identification . . . .” Biggers, 409
U.S. at 196. That, of course, is not the end of the
analysis. The question remains: Are first-time in-court
identifications unnecessarily suggestive and are they
the product of state action, such that they fall under
the ambit of the Constitution’s protections?
B.
¶73 Perry did not consider, and does not resolve, the
question we confront here today. See Galloway v.
State, 122 So. 3d 614, 663 (Miss. 2013) (“The United
States Supreme Court has not decided whether Biggers
applies to an in-court identification not preceded by an
impermissibly suggestive pretrial identification.”),
cert. denied, 572 U.S. 1134 (2014); see also Dickson,
141 A.3d at 821 (“The United States Supreme Court
has not yet addressed the question of whether first
time in-court identifications are in the category of
unnecessarily suggestive procedures that trigger due
process protections.”). The majority’s reliance on Perry
unmoors that case from its factual setting and ignores
the parallels between an unnecessarily suggestive
pretrial identification procedure arranged by one
branch of law enforcement—the police—and an unnecessarily suggestive in-court identification arranged by
another branch of law enforcement—the prosecution.

41a
¶74 In Perry, the Court was confronted with the
following question: “Do the due process safeguards
against the State’s use of unreliable eyewitness
identification evidence at trial apply to all identifications which arise from impermissibly suggestive
circumstances and which are very substantially likely
to lead to misidentification, or only to those identifications which are also the product of ‘improper state
action’?” Brief for Petitioner at i, Perry, 565 U.S. 228
(No. 10-8974). The uniform focus of both the parties’
briefs and the amicus briefs submitted to the Court
in Perry was whether state action was or was not
required to call into question the reliability of an
eyewitness identification. See generally Brief for
Petitioner, Perry, 565 U.S. 228 (No. 10-8974); Brief for
Respondent, Perry, 565 U.S. 228 (No. 10-8974); Brief
for the Am. Psychological Ass’n as Amici Curiae
Supporting Petitioner, Perry, 565 U.S. 228 (No. 108974); Brief for the Nat’l Ass’n of Criminal Def.
Lawyers as Amici Curiae Supporting Petitioner,
Perry, 565 U.S. 228 (No. 10-8974); Brief for Wilton
Dedge et al. as Amici Curiae Supporting Petitioner,
Perry, 565 U.S. 228 (No. 10-8974); Brief for the
Innocence Network as Amici Curiae Supporting
Petitioner, Perry, 565 U.S. 228 (No. 10-8974); Brief for
the Criminal Justice Legal Found. as Amici Curiae
Supporting Respondent, Perry, 565 U.S. 228 (No. 108974); Brief for the State of Louisiana et al. as Amici
Curiae Supporting Respondent, Perry, 565 U.S. 228
(No. 10 -8974); Brief for the United States as Amici
Curiae Supporting Respondent, Perry, 565 U.S. 228
(No. 10-8974); Brief for the Nat’l Dist. Attorney’s Ass’n
as Amici Curiae Supporting Respondent, Perry, 565
U.S. 228 (No. 10-8974).
¶75 Of course, the context in which that question
was being answered was a pretrial identification that

42a
had not been arranged by the police. The opinion, not
surprisingly, in addressing the need for state action to
implicate constitutional protections, focused on the
need for police participation in the unnecessarily
suggestive identification procedure. The only context
in which Perry focused on in-court identification was
when the Court rejected Mr. Perry’s argument that
any suggestive identification should be subject to
judicial screening. 565 U.S. at 240–44. I agree with the
majority that the Supreme Court’s reasoning in Perry
forecloses the conclusion that all in-court identifications should be screened merely because in-court
identification always involves an element of suggestiveness. But the Court’s reasoning in Perry and in
Biggers does not foreclose—and, I believe, requires—
judicial screening of some in-court identifications. See
United States v. Morgan, 248 F. Supp. 3d 208, 213
(D.D.C. 2017) (“Although the Supreme Court implied
in Perry that it did not want all in-court identifications
to be subject to judicial reliability screening, due
process concerns require such screening for an initial
in-court identification that is equivalent to a one-man
showup.” (internal citation omitted)). In particular,
first-time in-court identifications like the one here are
unnecessarily suggestive, conducive to irreparable
misidentification, and arranged by law enforcement.
¶76 First-time in-court identifications are at least
as suggestive as the pretrial identification processes
disapproved of by this and other courts. Dickson, 141
A.3d at 822–23 (“[W]e are hard-pressed to imagine
how there could be a more suggestive identification
procedure than placing a witness on the stand in open
court, confronting the witness with the person who the
state has accused of committing the crime, and then
asking the witness if he can identify the person who
committed the crime. If this procedure is not

43a
suggestive, then no procedure is suggestive.”). A firsttime in-court identification is effectively a “show-up”—
the witness is confronted with a single potential
suspect and asked if he or she is the right one. But incourt identifications are in fact more suggestive than
show-ups. A show-up might happen quite soon after a
crime, at a time when the police are still investigating
and might not yet have settled on a suspect. An incourt identification, by contrast, presents a witness
with the single person who the police and the
prosecutor believe committed the crime and typically
does so long after the commission of the crime.
¶77 Second, the chances of mistake in a first-time
in-court identification are at least as likely and the
consequences of the mistake are the same—a wrongful
conviction. See Hill, 967 F.2d at 232 (“The due process
concerns are identical in both cases and any attempt
to draw a line based on the time the allegedly
suggestive identification technique takes place seems
arbitrary. All of the concerns that underlie the Biggers
analysis, including the degree of suggestiveness, the
chance of mistake, and the threat to due process are
no less applicable when the identification takes place
for the first time at trial.”).
¶78 And finally, first-time in-court identification,
like impermissibly suggestive pretrial identifications,
involves the state action that Perry explained was
necessary to raise due process concerns. In pretrial
identifications, the law enforcement arm whose misconduct might be deterred by the Biggers screening
requirement is the police. When a prosecutor—another
arm of law enforcement—is considering asking for a
first-time in-court identification, requiring a judicial
screening will deter that prosecutor from simply
gambling that the courtroom setting will produce the

44a
desired identification. As the Connecticut Supreme
Court recognized in prohibiting in-court identifications that were not preceded by an appropriate
pretrial identification, “the rationale for the rule
excluding identifications that are the result of
unnecessarily suggestive procedures—deterrence of
improper conduct by a state actor—applies equally to
prosecutors.” Dickson, 141 A.3d at 824. 2
¶79 A first-time in-court identification will only
occur when a witness has either not had an
opportunity to identify the defendant before trial or, as
happened here, has failed to identify the defendant
when given the opportunity. In either case, the
prosecution should be required to explain why it
believes the in-court identification will be sufficiently
reliable to avoid the irreparable harm of a mistake
caused by the suggestive setting.
C.
¶80 For these reasons, I believe that a first-time
in-court identification requires pretrial screening
applying the factors set forth in Biggers. 3 If the trial
The rule adopted by both the Connecticut and the
Massachusetts courts—that an in-court identification must be
preceded by an appropriate pretrial identification—has much to
recommend it and may one day be recognized as required by due
process. Cognizant of concerns about a state supreme court’s
authority to adopt prophylactic rules under the federal
Constitution, I confine myself here to the application of the
Supreme Court’s established test for screening eyewitness
identifications procured through unnecessarily suggestive state
action.
2

I agree with the majority that requiring this screening only
for in-court identifications that are preceded by a failure to
identify could disincentivize the police to use appropriate pretrial
identification procedures. And I believe that the conduct that
application of the Biggers screen would seek to deter in this
3

45a
court had conducted that screening here, it is unlikely
that the three brothers would have been permitted to
identify Mr. Garner for the first time from the witness
stand. Biggers requires a court to consider
the opportunity of the witness to view the
criminal at the time of the crime, the witness’
degree of attention, the accuracy of the
witness’ prior description of the criminal, the
level of certainty demonstrated by the witness
at the confrontation, and the length of time
between the crime and the confrontation[,]
and to assess the reliability of an identification. 409
U.S. at 199–200. Considering each of those factors
here, the likely reliability of the brothers’ in-court
identifications was extremely low.
¶81 As described by many witnesses in attendance,
the shooting occurred in a very short period of time,
during which the three brothers were scared for
themselves and for each other. They had very little
time to view who was shooting and each of them
testified that their attention during that time was not
on the shooter’s face. Substantial scientific evidence
shows that “eyewitness memory for persons encountered during events that are . . . highly stressful . . .
may be subject to substantial error.” Henderson, 27
A.3d at 904 (quoting Charles A. Morgan III et al.,

Accuracy of Eyewitness Memory for Persons
Encountered During Exposure to Highly Intense
Stress, 27 Int’l J.L. & Psychiatry 265, 274 (2004)); see
also Lawson, 291 P.3d at 700–01. Moreover, as we
context is any use of first-time in-court identifications. Of course,
the brothers’ failure to identify Mr. Garner in a photo line-up is
something the court would consider as part of the screening
process.

46a
have previously acknowledged, “recognition accuracy
[is] poorer when the perpetrator [holds] a weapon.”
Bernal v. People, 44 P.3d 184, 190 (Colo. 2002)
(quoting Vaughn Tooley et al., Facial Recognition:
Weapon Effect and Attentional Focus, 17 J. of Applied
Soc. Psychology 845, 854 (1987)).
¶82 The passage of time between the crime and the
confrontation was significant; the shooting occurred
three full years before the trial. Research demonstrates that “the more time that passes, the greater
the possibility that a witness’ memory of a perpetrator
will weaken.” Henderson, 27 A.3d at 907.
¶83 The three brothers offered wildly varying
descriptions of the shooter over the course of the
investigation. Initially, one described him as a young,
bald man with the word “north” tattooed on his head.
Another described him as a Hispanic man with short
black hair. Later, two of the brothers said the shooter
had both a mustache and a soul patch. Each of the
brothers also gave differing descriptions of the shooter’s
clothes—one said he wore a bandana, another said
jeans and tennis shoes, and the third said a dark shirt.
Of these various items of clothing, the only one that
Mr. Garner was wearing that night was a dark shirt.
¶84 If the court had screened for reliability before
trial, the only evidence it would have had that would
go to the brothers’ “level of certainty” would be the fact
that none of the three was able to identify Mr. Garner
in a photo array as the person who shot at them that
night, notwithstanding their later courtroom assertions of certainty and that they would never forget Mr.
Garner’s face. In fact, one of the brothers specifically
said that Mr. Garner had been in the bar but that he
was not the shooter. The brothers had no certainty at

47a
all before walking into the courtroom about their
ability to identify Mr. Garner as the shooter. 4
¶85 Given these facts, a pretrial screening for
reliability quite likely would have led the court to
conclude that the brothers’ first-time in-court identifications lacked any likelihood of reliability and
prevented a very high risk of the irreparable mistaken
identification that due process protects against. Mr.
Garner may or may not have committed the crime for
which he was convicted. The process by which he was
convicted was fundamentally unfair. Our Constitution
requires more.
¶86 I respectfully dissent. I am authorized to state
that JUSTICE HOOD and JUSTICE GABRIEL join in
this dissent.

While the brothers’ testimony from the stand reflected an
extremely high level of certainty, certainty and accuracy do not
have a high level of correlation. See, e.g., Neil Brewer, et al., The
Confidence-Accuracy Relationship in Eyewitness Identification,
8 J. Experimental Psychol. Applied 44, 44–45 (2002) (“[T]he
outcomes of empirical studies, reviews, and meta-analyses have
converged on the conclusion that the confidence-accuracy
relationship for eyewitness identification is weak . . . .”). For that
reason, many states have replaced the “certainty” factor in the
Biggers analysis. See, e.g., State v. Herrera, 902 A.2d 177, 186
(N.J. 2006); Brodes v. State, 614 S.E.2d 766, 771 (Ga. 2005).
4

48a
APPENDIX B
COLORADO COURT OF APPEALS
____________

2015COA175

Court of Appeals No. 12CA2540
Adams County District Court No. 10CR1565
Honorable Mark D. Warner, Judge
_____________
The People of the State of Colorado,
Plaintiff-Appellee,
v.
James Joseph Garner,
Defendant-Appellant.
_________________
JUDGMENT AFFIRMED
Division IV
Opinion by JUDGE GRAHAM
Román and Vogt*, JJ., concur
Announced December 17, 2015
_____________
Cynthia H. Coffman, Attorney General, Jillian J.
Price, Assistant Attorney General, Denver, Colorado,
for Plaintiff-Appellee
Douglas K. Wilson, Colorado State Public Defender,
Rachel C. Funez, Deputy State Public Defender,
Denver, Colorado, for Defendant-Appellant
*Sitting by assignment of the Chief Justice under
provisions of Colo. Const. art. VI, § 5(3), and § 24-511105, C.R.S. 2015.

49a
¶1 Defendant, James Joseph Garner, appeals the
judgment of conviction entered on a jury verdict
finding him guilty of two counts of attempted reckless
manslaughter, one count of first degree assault, and
one count of reckless second degree assault. We affirm.
I. Background
¶2 According to the People’s evidence, C.A.D. and
his brothers R.A.D. and A.A.D. were celebrating
C.A.D.’s birthday at a bar. Defendant, his girlfriend
Jaime Velasquez, and approximately four other
individuals were also at the bar. During the night, a
male from defendant’s group approached C.A.D. and
asked him whether he belonged to a gang. C.A.D. said
he did not. Shortly after this encounter, C.A.D. left the
bar to go home.
¶3 However, C.A.D. returned to the bar with his
friend Gabriel Reyes to give his two brothers a ride
home. Before the group left, R.A.D. went to the
bathroom. On his way back from the bathroom,
someone from defendant’s group pushed R.A.D. into a
table. During the ensuing chaos, defendant shot at
R.A.D., grazing his wrist. Defendant then turned,
shot, and injured both C.A.D. and A.A.D. After the
shooting, defendant and his group fled through the
back door. Defendant’s glasses, spattered with his
blood, were found on the floor of the bar. Also, a bar
employee found Velasquez’s cell phone containing
pictures of defendant and Velasquez taken at the bar.
These photos were used to locate and identify
defendant.
¶4 Before trial, no witness was able to positively
identify defendant from a photo lineup. However, at
trial, all three brothers identified defendant as the

50a
shooter. The defense argued at trial that defendant
was not the shooter.
¶5 Defendant was found guilty and sentenced to
thirty-two years in the custody of the Department of
Corrections.
II. In-Court Identifications
¶6 Defendant first contends that his right to due
process and the requirements of various rules of
evidence were violated when the court allowed the
brothers to make impermissibly suggestive in-court
identifications after failing to make a pretrial
identification. We disagree.
A. Standard of Review
¶7 Reviewing the constitutionality of in-court
identification procedures is a mixed question of law
and fact. We give deference to the trial court’s finding
of fact while conclusions of law are reviewed de novo.
Bernal v. People, 44 P.3d 184, 190 (Colo. 2002).
¶8 We review the admission of first time, in-court
show-up identifications by considering whether the
identification is the product of constitutionally
impermissible suggestive circumstances. People v.
Monroe, 925 P.2d 767, 775 (Colo. 1996).
¶9 We review evidentiary rulings for an abuse of
discretion. People v. Clark, 2015 COA 44, ¶ 14.
B. Applicable Law
¶10 An in-court identification, made by a witness
who attended an illegal, pretrial lineup, is permissible
only after there is a determination that the in-court
identification is based upon a source independent of
the improper lineup identification. This determination
is made by the trial court, considering the totality of

51a
the circumstances. United States v. Wade, 388 U.S.
218, 242 (1967); Monroe, 925 P.2d at 770. The harm
sought to be precluded is the likelihood that the incourt identification is the product of the illegal lineup
and not the observation of the defendant’s wrongful
act. Monroe, 925 P.2d at 774.
¶11 In considering the totality of the circumstances
the trial court should review five factors to gauge the
likelihood of misidentification and apply an
exclusionary rule: (1) the opportunity of the witness to
view the accused; (2) the witness’s degree of attention;
(3) the accuracy of the witness’s prior description; (4)
the level of certainty demonstrated by the witness at
the confrontation; and (5) the length of time between
the crime and the confrontation. Neil v. Biggers, 409
U.S. 188, 199 (1972). This analysis deals with the
exclusion of impermissible pretrial identifications and
the in-court identifications that follow them. United
States v. Domina, 784 F.2d 1361, 1368 (9th Cir. 1986).
¶12 The majority of courts addressing this issue
have determined that Neil v. Biggers does not apply to
in-court identifications. See Byrd v. State, 25 A.3d 761,
765 (Del. 2011) (remedy for alleged suggestiveness is
cross-examination and argument); State v. King, 934
A.2d 556, 559-60 (N.H. 2007) (fact finder can observe
witness during in-court identification process and
evaluate the reliability the identification); State v.
Lewis, 609 S.E.2d 515, 517-18 (S.C. 2005) (remedy for
alleged suggestiveness is cross-examination and
argument).
¶13 Colorado has rejected a rule that one-on-one
show-up identifications are per se violations of due
process. Monroe, 925 P.2d at 773. Indeed, People v.
Monroe made it clear that “[t]he exclusionary rule has
not been extended to in-court identifications alleged to

52a
be suggestive simply because of the typical trial
setting.” Id. at 775. It is the duty of the jury to assess
the reliability of identification evidence unless there is
a very substantial likelihood of misidentification. Id.
C. Analysis
¶14 The parties dispute whether this issue was
properly preserved for appeal. Here, all three brothers
made in-court identifications of defendant as the
shooter. The first identification was made late in the
afternoon, and the court adjourned roughly ten
minutes after this identification. The following
morning, before questioning continued, defendant
objected to the identification as an impermissible oneon-one show-up identification. The court allowed the
People to submit case law on the issue and took it
under advisement. Defendant contemporaneously
objected to the next two in-court identifications, and
the court overruled both objections.
¶15 The People contend that defendant waived any
objection because he failed to ask the trial court to
make a final ruling regarding the identifications.
However, it is unclear from the record whether the
trial court did in fact make a final ruling on the
objection. 1 Because the record is not clear as to the
trial court’s intentions in overruling the objection and
defendant clearly contemporaneously objected to the
second and third in-court identifications, we conclude
that this issue was preserved.
1. Lack of Pretrial Identifications
¶16 During the police’s investigation and at trial,
the brothers gave varying descriptions of the shooter
After the second and third objections, the trial court made no
record of whether the issue was still under advisement.
1

53a
and his clothing. The brothers’ description of the
events leading up to the shooting was also wideranging. As part of the investigation, the brothers had
each been shown a photo lineup with the defendant’s
picture prior to trial; however, at no point were the
brothers given the opportunity to identify the
defendant in an in-person lineup. None of the
witnesses was able to definitively identify defendant
as the shooter from the photos. C.A.D. was able to
positively identify defendant as being present at the
bar the night of the shooting, but could not confirm
that he was the shooter. A.A.D. and R.A.D. were not
able to identify defendant from the photos as being
present at the bar the night of the shooting.
2. Defendant’s Presence at the Bar
¶17 While there were varying accounts and
descriptions of the events on the night of the shooting,
it was definitively established at trial that defendant
was at the bar on the night of the shooting. First,
defendant’s DNA was found on a pair of glasses found
at the crime scene. Second, a bar employee testified
that she saw defendant and Jaime Velasquez taking
pictures together on Velasquez’s phone a short time
before the shooting. That same employee found the
phone on the floor following the shooting and, using
the photos of defendant and Velasquez from the phone,
the police created a bulletin to help locate defendant
as a person of interest.
3. In-Court Identifications
¶18 At trial, each brother identified defendant as
the shooter. Each identification took place while
defendant was sitting at the defense table. Despite not
having been able to identify defendant as the shooter
from the photo lineup, all three of the brothers were

54a
certain at trial that defendant was the individual who
shot them. The following testimony by one of the
brothers is typical of how the in-court identifications
were made:
[Prosecutor]: Now, Mr. [R.A.D.], do you see
anybody here in the courtroom today who shot
at you on that particular evening?
[R.A.D.]: Can I point?
[Prosecutor]: If you recognize somebody as the
person who shot at you and the person who
shot your brother [C.A.D.], yes, you can tell the
Court or the jury where he’s seated and tell
them an item of clothing he is wearing.
[R.A.D.]: Right now?
[Prosecutor]: Yes.
[R.A.D.]: He’s got a shirt that’s blue in color.
[Prosecutor]: And can you tell the jury where
he’s seated? You can point to him if you need
to.
[R.A.D.]: Yeah. It’s over there.
[Prosecutor]: Let the record reflect
defendant’s been identified . . . .

the

¶19 Although counsel contemporaneously objected
to two of the identifications on the basis that they were
one-on-one showups, there was no specific argument
about
what
counsel
contended
were
the
constitutionally
impermissible
and suggestive
circumstances other than the fact that these
identifications occurred in the courtroom setting.
¶20 One-on-one confrontations are viewed with
disfavor because they tend to be suggestive and

55a
present greater risks of mistaken identification than a
lineup. People v. Walker, 666 P.2d 113, 119 (Colo.
1983). But, one-on-one confrontations are not per se
violations of due process. Id. An in-court identification
is properly considered by the jury if it does not stem
from a constitutionally defective identification
procedure. Monroe, 925 P.2d at 771 (citing Coleman v.
Alabama, 399 U.S. 1, 4-5 (1970)).
¶21 Here, counsel argued that the brothers had
been unable to identify defendant as the shooter prior
to trial. While the inability of a witness to identify the
defendant in a photographic lineup is relevant and
certainly grist for cross-examination, it does not, as a
matter of law, preclude him from making an
identification upon seeing the defendant in court.
People v. Horne, 619 P.2d 53, 57 (Colo. 1980); People
v. Borrego, 668 P.2d 21, 23 (Colo. App. 1983). Instead,
the previous inability to identify goes to the weight of
his identification testimony rather than its
admissibility. Horne, 619 P.2d at 57; see also United
States v. Brown, 200 F.3d 700, 707 (10th Cir. 1999)
(victim’s identification of the defendants at trial, while
the product of a suggestive procedure, occurred in the
presence of the jury and the victim was fully and fairly
cross-examined about the process and his previous
inability to positively identify the defendants); United
States v. Aigbevbolle, 772 F.2d 652, 654 (10th Cir.
1985) (failure to identify the defendant from the photo
array pretrial reflected merely on the weight of her incourt identification rather than its admissibility).
¶22 Defendant maintains that it would have been
impossible for the brothers to all fail to identify
defendant as the shooter in a photo lineup yet
successfully identify him in court. That is certainly a
fair argument. But as the cases hold, the previous

56a
failure to identify defendant is an issue that goes to
weight of the identification and not the admissibility
of the identification. Byrd, 25 A.3d at 767.
“When the initial identification is in court, . . .
[t]he [fact finder] can observe the witness
during the identification process and is able to
evaluate the reliability of the initial
identification.” Domina, 784 F.2d at 1368
(citation omitted). In addition to affording the
fact finder the opportunity to observe and
assess the identification itself, an initial incourt identification is subject to immediate
challenge through cross-examination. Not only
is counsel present, but the jury has full
opportunity to view the circumstances and
assess evidentiary worth.

King, 934 A.2d at 560 (some citations omitted).
¶23 Here, while the three brothers’ in-court
identifications may have been the product of a
suggestive procedure, we conclude that the trial court
did not err in admitting the evidence. 2 The fact that
the brothers could not identify defendant as the
shooter using a photo lineup goes to the weight, not
the admissibility of the in-court identifications. This
was the first time since the shooting that the brothers
had seen the defendant in person. At trial each brother
was certain that defendant was the shooter. Each
identification was done in the presence of the jury and
the jurors were in the best position to assess the
We similarly reject the bare evidentiary arguments made
under CRE 403, 602, and 701. Defendant did not make specific
objections under those rules, and on the basis of our ruling that
the identifications were proper, we see no abuse of discretion by
the trial court under those evidentiary rules.
2

57a
credibility of each brother. Indeed, defense counsel
extensively cross-examined and impeached each of the
brothers with their prior inconsistent statements and
inability to identify defendant as the shooter from the
photo lineup. Because the jury had the opportunity to
give the in-court identifications whatever weight it
deemed appropriate and defendant was given a full
and fair opportunity to cross-examine each of the incourt identifications, we conclude that his right to due
process was not violated and the trial court did not err
in admitting the in-court identifications.
III. Prosecutorial Misconduct
¶24 Defendant next contends that numerous
instances of prosecutorial misconduct violated his
right to a fair trial. We agree that there was one
potential instance of misconduct, but conclude it does
not require reversal of defendant’s conviction.
A. Standard of Review and Applicable Law
¶25 Prosecutors must “refrain from improper
methods calculated to produce a wrong conviction.”
Wilson v. People, 743 P.2d 415, 418 (Colo. 1987)
(citation omitted). In reviewing prosecutorial
misconduct claims, “the reviewing court engages in a
two-step analysis.” Wend v. People, 235 P.3d 1089,
1096 (Colo. 2010). First, we “determine whether the
prosecutor’s questionable conduct was improper based
on the totality of the circumstances.” Id. In doing so,
we “must evaluate the severity and frequency of
misconduct, any curative measures taken by the trial
court to alleviate the misconduct, and the likelihood
that the misconduct constituted a material factor
leading to the defendant’s conviction.” People v.
Hogan, 114 P.3d 42, 55 (Colo. App. 2004). The
determination of whether a prosecutor’s words and

58a
actions amount to misconduct is generally left to the
sound discretion of the trial court. Domingo-Gomez v.
People, 125 P.3d 1043, 1049 (Colo. 2005); People v.
Rhea, 2014 COA 60, ¶ 42. Second, we consider whether
such actions warrant reversal according to the proper
standard of review. Wend, 235 P.3d at 1096.
B. Preserved Contentions
¶26 Defendant presents three instances of alleged
misconduct in which a contemporaneous objection was
made. “As to preserved issues, the trial court’s rulings
on prosecutorial misconduct ‘will not be disturbed by
an appellate court in the absence of a gross abuse of
discretion resulting in prejudice and a denial of
justice.’” Rhea, ¶ 42 (quoting People v. Moody, 676
P.2d 691, 697 (Colo. 1984)). We review preserved
errors for harmlessness. Wend, 235 P.3d at 1097.
1.
¶27 First, defendant contends the prosecutor
misled the jury during his direct examination of the
investigating detective. Specifically, defendant
maintains the prosecutor misstated C.A.D.’s previous
statements to police.
¶28 We perceive no error. Defendant objected when
the prosecutor began asking about C.A.D.’s previous
interview with the police. In response, the court
instructed the prosecutor to ask questions using “what
was said in the transcript specifically.” Because the
prosecutor asked questions quoting directly from
C.A.D.’s previous interview we cannot conclude the
prosecutor misled the jury and, thus, these questions
were not improper.
2.

59a
¶29 Next, defendant contends the prosecutor
improperly asked the detective whether in-person
lineups are more likely to produce an identification
rather than a photo lineup without having given
pretrial notice that the detective would offer expert
testimony.
¶30 The following exchange took place:
[Prosecutor]: Have you had the opportunity to
have in-person lineups done?
[Detective]: Yes.
[Prosecutor]: And based on your training and
experience are those a preferred method to a
photographic lineup?
[Defense counsel]: Objection. This witness is
not endorsed as an expert, this is 702 material.
We don’t have an expert endorsement.
...
[Court]: Well, I think the question was what
he preferred and the jury can only use it for
that purpose what this particular witness
prefers. I’ll allow it, allow him to answer that
question.
...
[Detective]: Yes, I prefer an in-person lineup.
[Prosecutor]: Why is that?
[Detective]: Because an individual during an
in-person lineup can actually see more than
what’s in a photograph. They can see the
height, the weight, the stature of the
individual, the facial gestures, motion, things
like that.

60a
[Prosecutor]: And based upon your personal
experience, when you do an in-person lineup,
are those – are you more likely to get an
identification than in a photographic lineup?
[Defense counsel]: Objection
[Court]: Sustained
¶31 We discern no error. The court sustained
defense counsel’s objection and did not allow the
detective to answer whether in-person lineups were
more likely to produce identifications. The initial
exchange went to the detective’s personal preference
and these questions were proper, because the
detective, as a lay witness, had substantial experience
conducting photo lineups.
3.
¶32 Last, defendant contends that the prosecutor
improperly impeached defendant’s ex-girlfriend, Irma
Cisneros, with a pending felony charge, which the
Adams County District Attorney was also prosecuting.
We discern no error.
¶33 Here, outside the presence of the jury, defense
counsel requested that the prosecution not be
permitted to inquire about Cisneros’ pending felony
charge. Using the reasoning of Davis v. Alaska, 415
U.S. 308, 316 (1974), the court determined that the
prosecution was able to inquire into the pending felony
charge to show bias. The court limited questions that
could be asked and did not allow the prosecution to
bring up the specific charge of felony assault on a
police officer. The prosecutor complied with the
limiting instructions and on cross-examination 3 asked,
In addition, we note that it was defense counsel who first
brought up the pending charges on direct examination.
3

61a
“you are currently facing charges and being
prosecuted by our office for other crimes?” Thus, we
conclude it was proper to impeach Ms. Cisneros
regarding her felony charge, and no misconduct
occurred.
C. Unpreserved Errors
¶34 Defendant next presents roughly fifteen
instances in which he contends the prosecutor
committed reversible misconduct to which he did not
contemporaneously object to. Because defendant’s
remaining misconduct claims were not preserved, our
review is for plain error. Wend, 235 P.3d at 1097.
Prosecutorial misconduct rarely constitutes plain
error. People v. Estes, 2012 COA 41, ¶ 19. To warrant
reversal, the “misconduct must be flagrant or glaring
or tremendously improper, and it must so undermine
the fundamental fairness of the trial as to cast serious
doubt on the reliability of the judgment of conviction.”
People v. Weinreich, 98 P.3d 920, 924 (Colo. App.
2004), aff’d, 119 P.3d 1073 (Colo. 2005).
¶35 “Defense counsel’s failure to object is a factor
that may be considered in examining the impact of a
prosecutor’s argument and may ‘demonstrate defense
counsel’s belief that the live argument, despite its
appearance in a cold record, was not overly
damaging.’” People v. Strock, 252 P.3d 1148, 1153
(Colo. App. 2010) (quoting People v. Rodriguez, 794
P.2d 965, 972 (Colo. 1990)).
1.
¶36 Defendant first contends the prosecutor
improperly injected her personal knowledge of outside
evidence and bolstered the brothers’ credibility when
she asked the detective, “And in your report did you
include everything that they had said or just the

62a
additional information.” And, “When you wrote the
report in that case, did you report everything that was
said that day?” Defendant alleges that these questions
implied that the brothers had been giving consistent
statements when speaking to detectives. However,
these questions merely established that the detective’s
second report after interviewing a witness would not
contain information that the witness had previously
given. We are not persuaded that this line of
questioning injected the prosecutor’s personal
knowledge of outside evidence.
2.
¶37 Defendant next claims the prosecutor
improperly asked questions on redirect of the bar
manager that misstated his previous testimony. At
issue was whether the bar manager had seen what the
shooter was wearing. During the exchange the
prosecutor asked:
[Prosecutor]: Now, the person who ran past
you who was firing shots, can you please tell
the jury what shirt he was wearing?
[Bar manager]: He had a black shirt on. It was
a black shirt kind of like this with a red stripe
on the sleeve on this side.
Later the prosecutor asked:
[Prosecutor]: The person that you saw that ran
by you with the black shirt and the red stripes
on the sleeve, that was the person that you
saw firing shots; right?
[Bar manager]: No, I didn’t see anybody
shooting. As I was saying, the bar is high and
I wasn’t able to see, so I couldn’t see their
hands. I just saw him running past.

63a
On redirect examination defendant contends the
prosecutor committed misconduct by asking:
[Prosecutor]: The person that you saw come
through the bar shooting with the black shirt
with the red stripes, that person was with the
group with the women?
[Bar manager]: You know, that he was – the
one causing the problems, yes. If he was the
one that fired, I don’t know. But that they all
left together.
....
[Prosecutor]: And you never saw the face of the
person who was firing shots, just the shirt;
right?
[Bar manager]: Yes.
¶38 We disagree that the prosecutor’s questions on
redirect were improper. The bar manager first
testified that the shooter had a black shirt with red
stripes. The bar manager later testified he did not see
the shooter. Thus, the prosecutor’s questions on
redirect were proper given the inconsistent testimony
and the varied answers already given.
3.
¶39 Defendant also contends the prosecutor, in
multiple instances, improperly asked questions that
implied a man described as “norteño pelón” had not
previously been identified as the shooter. We conclude
the prosecutor’s questions were proper. Defendant
fails to point out any conclusive statements the
brothers made that specifically identified the shooter
as the “norteño pelón.” Thus any questions clarifying
witnesses’ statements were proper especially given the

64a
fact that many of the witnesses had given varied
descriptions of the shooter on different occasions.
¶40 Defendant also contends that the prosecutor
improperly elicited testimony that interchanged the
words “pelón” and “bald” from witness statements.
However, we find no misconduct because it was clearly
established that pelón means “bald” in Spanish.
4.
¶41 Additionally, defendant asserts the prosecutor
asked the detective a question that mischaracterized
Gabriel Reyes’ testimony. The prosecutor asked, “Do
you remember Gabriel Reyes testifying that a man
came in moments after him with two guns and handed
one to the defendant?” In his testimony Reyes used the
word “shooter” instead of “defendant.” However,
defense counsel objected to the question as leading.
The court sustained the objection stating, “This is
closing argument stuff.” Although the prosecutor
misstated the previous testimony, we perceive no
misconduct because the detective never answered the
question. Further, even if it was improper to misstate
this testimony, we conclude this was not so flagrant or
glaring or tremendously improper so as to rise to the
level of plain error. See Rhea, ¶ 71.
5.
¶42 Next, defendant states the prosecutor
improperly attempted to discredit R.A.D.’s statements
made to police the night of the shooting by implying an
interpreter had not been present. We disagree that
any misconduct occurred.
¶43 First, R.A.D. confirmed that the interview with
detectives was given with an interpreter present.
Second, the detective confirmed that C.A.D.’s wife was

65a
helping translate. Third, the prosecutor only asked
whether the detectives who interviewed R.A.D. were
fluent in Spanish. Because the record does not support
defendant’s contention, we find no misconduct.
6.
¶44 Defendant further argues the prosecutor
improperly implied in questioning R.A.D. and the
detective that R.A.D. had never said which of the three
men was the shooter. Defendant’s own brief states this
is technically true. Thus, we conclude the questions
were proper.

7.
¶45 Moreover, defendant declares that the
prosecutor elicited testimony that a bar employee
never identified the man who came in after
defendant’s group as the shooter. Defendant fails to
point out specifically where in the record the bar
employee identified the man who walked into the bar
later as the shooter. Instead, the bar employee
testified that shooting started right after the man
walked into the bar and thus she believed he was the
shooter. However, she also testified that she never saw
the shooter. Therefore these questions clarifying
witness statements were proper.
8.
¶46 Defendant also avers that, in questioning the
detective, the prosecutor improperly misstated
previous statements that A.A.D. had made to him
during an interview. Specifically, the detective
testified that he did not recall A.A.D. telling him that
the man in glasses was not the shooter. We conclude
these questions were proper. First, the prosecutor did
not improperly lead the detective to answer that

66a
A.A.D. had not made the previous statements.
Further, defense counsel impeached this testimony
and elicited testimony from A.A.D. that he had in fact
stated the man with glasses was not the shooter.
9.
¶47 Additionally, defendant says the prosecutor
improperly pointed to C.A.D.’s and R.A.D.’s medical
condition after the shooting to discredit their out-ofcourt identifications, but failed to bring this up again
during other statements which supported the People’s
case. We conclude that the prosecutor’s actions were
proper. The prosecution was highlighting a reason, as
testified to, why the brothers’ statements might have
been inconsistent. This is proper argument and no
misconduct occurred. See Domingo-Gomez, 125 P.3d
at 1048.
10.
¶48 Furthermore, defendant maintains that the
prosecutor improperly encouraged the three brothers’
in-court identifications of defendant. However, each of
the three in-court identifications followed the pattern
of the sample testimony we have included above and
was the product of witnesses who had been
sequestered. Each witness pointed to or identified the
defendant as the shooter prior to ever being asked to
identify defendant as the shooter. Thus, we disagree
that the prosecutor improperly encouraged the incourt identifications.
11.
¶49 Defendant contends the prosecutor improperly
bolstered the brothers’ in-court identifications by
using a hypothetical in closing argument. The
prosecutor proposed that jury members would have a

67a
difficult time remembering what the other prosecutor
was wearing during trial but would easily recognize
her during a later face-to-face encounter. She used this
comparison to argue that the brothers may not have
recognized the photo of defendant but could have
easily recognized him as the shooter during the faceto-face encounter.
¶50 Defendant claims that the prosecutor had no
good faith basis to argue that the brothers would be
able to identify defendant as the shooter three years
after the shooting.
¶51 We discern no misconduct. During closing
argument, counsel may employ rhetorical devices,
engage in oratorical embellishment, and employ
metaphorical nuances, insofar as they do not induce
the jury to determine guilt based on passion or
irrelevant issues. People v. Allee, 77 P.3d 831, 837
(Colo. App. 2003). During closing argument,
prosecutors have wide latitude to address the strength
and significance of evidence, as well as any reasonable
inferences that may be drawn from the evidence.
Domingo-Gomez, 125 P.3d at 1048.
¶52 Rather than improperly misleading the jury
the prosecutor may have been demonstrating the point
that it can be much easier to recognize a person one
has met or seen in the past as opposed to describing
what that person was wearing at the time of the
interaction. Further, it is a reasonable inference that
the brothers would not be able to identify defendant
from the photos yet would be able to identify him in
court. See, e.g., Borrego, 668 P.2d at 23; see also
United States v. Toney, 440 F.2d 590, 591 (6th Cir.
1971).
12.

68a
¶53 Next, defendant contends that the prosecutor
improperly implied through questioning the detective
that, if the brothers had been asked to specifically
identify the shooter from the lineup rather than being
asked it they simply recognized anyone, they would
have been able to identify defendant as the shooter.
¶54 We disagree that the prosecutor committed
misconduct. Throughout the trial it was clearly
established that the brothers were unable to identify
defendant as the shooter in any photo lineup. Defense
counsel also established that C.A.D. was the only
witness who identified defendant as being present the
night of the shooting. Thus, we cannot conclude that
the prosecutor implied that the brothers would have
identified defendant as the shooter if they had been
asked that specific question.
13.
¶55 Defendant also claims that the prosecutor
improperly made herself a witness by placing words
into witnesses’ mouths. Because we have concluded
that the above contentions of misstating witness
testimony did not constitute prosecutorial misconduct,
we also conclude that the prosecutor did not
improperly make herself a witness.
14.
¶56 As well, defendant insists that the prosecutor
improperly used the word lie during rebuttal closing
argument when she stated:
Is it possible that all three of these guys come
in here and lie to you and tell you that they’re
100 percent sure he’s the shooter and that
they’re all three willing to send an innocent
person to get convicted of this? I would submit

69a
to you that its [sic] not even possible, but it’s
certainly not reasonable.
¶57 Prosecutorial use of the word “lie” and the
various forms of “lie” are improper. Wend, 235 P.3d at
1096. In this instance the prosecutor used the word
“lie” when hypothecating about the veracity of the
three brothers as witnesses, and thus, we will assume
it was improper. 4
¶58 In evaluating a prosecutor’s argument under
the plain error standard, we must “focus on the
cumulative effect of the prosecutor’s statements using
factors including the exact language used, the nature
of the misconduct, the degree of prejudice associated
with the misconduct, the surrounding context, and the
strength of the other evidence of guilt.” Id. at 1098; see
People v. McMinn, 2013 COA 94, ¶ 60.
¶59 In Wend, the prosecutor, during both opening
and closing arguments, repeatedly used the words
“lie,” “lies,” and “liar” to describe the defendant’s
various stories. Here, the prosecutor used the word
“lie” one time in an otherwise proper closing argument
to question the motives not of the defendant but of
material witnesses. Further, she did not suggest that
they were lying; rather, she was arguing that they had
no motive to lie. Moreover, the defendant did not object
to this statement at trial, and it may not have stood
out to the jury. Viewing the comments in context and
in light of all of the evidence, we conclude that the
prosecutor’s single use of the word “lie,” even if
inappropriate, was not so flagrantly, glaringly, or
tremendously improper as to rise to the level of plain
We give the benefit of the doubt to defendant, recognizing
that simply using the word “lie” is not improper unless it is used
to characterize testimony.
4

70a
error. See Domingo-Gomez, 125 P.3d at 1051-52;
People v. Herrera, 1 P.3d 234, 240-41 (Colo. App. 1999)
(prosecutor’s comment that the defendant was lying
was improper but did not constitute plain error).
15.
¶60 Finally, defendant contends that the
prosecutor improperly implied that Irma Cisneros
may have been present at the bar during the shooting
despite knowing this was false. During direct
examination, both A.A.D. and C.A.D. spontaneously
identified Cisneros, who was sitting in the courtroom,
as having been present the night of the shooting.
However, Cisneros later testified that she and
defendant had previously broken up and she was not
with defendant at the bar. She further testified that
the woman who was with defendant in the photos at
the bar had caused the break-up. The prosecutor crossexamined her on this issue and inquired as to why she
had been present throughout the trial. The
investigating detective also testified that there was no
information confirming or denying Cisneros’s presence
at the bar.
¶61 We conclude the prosecutor’s actions were not
improper. Contrary to defendant’s contention, nothing
in the record offers definitive proof that Cisneros was
not present at the bar. Although she denied having
been at the bar, two witnesses spontaneously
identified her as having been present at the bar and
she was present in the courtroom throughout the
duration of the trial supporting defendant. Thus, it
was proper for the prosecutor to explore this
possibility.

71a
IV. Exhibit 25
¶62 Defendant next contends that the trial court
committed reversible error in admitting Exhibit 25, a
report containing the data extracted from Velasquez’s
cell phone found at the crime scene. Defendant argues
that the data included text messages and photos that
were irrelevant and unfairly prejudicial. We disagree.
A. Standard of Review and Applicable Law
¶63 A trial court’s evidentiary ruling is reviewed for
an abuse of discretion. Kaufman v. People, 202 P.3d
542, 553 (Colo. 2009). Trial courts have considerable
discretion in determining the relevance, probative
value, prejudicial impact, and ultimate admissibility
of evidence. People v. Ibarra, 849 P.2d 33, 38 (Colo.
1993). We will not disturb a trial court’s evidentiary
ruling unless it is manifestly arbitrary, unreasonable,
unfair, or based on a misapprehension of the law.
People v. Carter, 2015 COA 24M, ¶ 27; People v.
Chavez, 190 P.3d 760, 765 (Colo. App. 2007).
¶64 “Evidence which is not relevant is not
admissible.” CRE 402. Evidence is relevant if it has
“any tendency to make the existence of any fact that is
of consequence to the determination of the action more
probable or less probable than it would be without the
evidence.” CRE 401. Relevant evidence may be
excluded, however, if its probative value is
substantially outweighed by the danger of unfair
prejudice. CRE 403. “‘All effective evidence is
prejudicial in the sense that it is damaging to the party
against whom it is being offered.’” People v. Cardenas,
2014 COA 35, ¶ 52 (quoting People v. Fasy, 813 P.2d
797, 800 (Colo. App. 1991)). In assessing the
admissibility of evidence over a party’s CRE 403
objection, “we must assume the maximum probative

72a
value of the evidence and the minimum prejudice
reasonably to be expected.” People v. Curtis, 2014 COA
100, ¶ 49.
B. Analysis
¶65 Here, the cell phone data admitted contained a
number of photos from the phone as well as one text
message. The data on the phone was relevant to the
identification of defendant and the other individuals
present at the shooting. The collection of photos
included pictures of defendant and Velasquez taken at
the bar the night of the shooting. The bar employee
who found the phone looked through it with police to
see if pictures taken that night would help police
identify individuals involved in the shooting. The
judge admitted all photos from the phone, even the
ones that might have appeared to have been taken on
a different date, because the precise date of each photo
was not known. Because the photos are relevant to the
issue of identification we cannot conclude that the trial
court abused its discretion in admitting them into
evidence.
¶66 Defendant further contends that, even if
relevant, the probative value of the data was
substantially outweighed by the danger of unfair
prejudice. Specifically, defendant alleges that the
photos of individuals making hand gestures were
unfairly prejudicial because the jury could infer gang
affiliations from the gestures. The court determined
that the photos were not indicative of gang activity but
that it would reconsider its ruling if there was
testimony linking the hand gestures in the photos to
gang affiliations. However, this testimony was never
elicited and the court had no need to address the issue
again. This speculative inference is not prejudicial

73a
enough to conclude that the trial court abused its
discretion in admitting the photos.
¶67 Finally, defendant alleges the text message
included in the admitted report was unfairly
prejudicial. Specifically, the text message sent from
the phone on page eight of the report which stated “Na
Wre @ cass’ hm!es cr!b.. Bt h!s G!tchs mak!nG dum
Statements shes Gun Get smashed” was unfairly
prejudicial because of its violent nature. This bare and
unintelligible text message was not interpreted for the
jury nor was it tied to any evidence in the case.
Therefore, it was irrelevant; but we find its admission
was harmless. Moreover, the court addressed the
potentially prejudicial text messages when it excluded
page seven of the report that contained text messages
forwarded from the Limon Correctional Facility. The
probative value of the report was not substantially
outweighed by the danger of unfair prejudice. Thus we
cannot conclude that the trial court abused its
discretion in admitting Exhibit 25.
V. Cumulative Error
¶68 Finally, defendant contends that his conviction
should be reversed due to cumulative error. We
disagree.
¶69 Although an appellate court may find that
individual errors do not require reversal, numerous
irregularities may in the aggregate show the absence
of a fair trial. People v. Jenkins, 83 P.3d 1122, 1130
(Colo. App. 2003). However, cumulative error applies
only if the trial court committed numerous errors. A
defendant’s mere assertions of error are insufficient to
warrant reversal. People v. Blackwell, 251 P.3d 468,
477 (Colo. App. 2010).

74a
¶70 Here, we have rejected all but a portion of one
of defendant’s claims of error as harmless. The
remaining asserted errors did not singly or
cumulatively deny defendant a fair trial. He thus is
not entitled to reversal based on a theory of
cumulative error.
VI. Conclusion
¶71 The judgment is affirmed.
JUDGE ROMÁN and JUDGE VOGT concur.

